<html>
<title> - AN EXAMINATION OF VETERAN ACCESS TO TRADITIONAL AND ALTERNATIVE FORMS OF MENTAL HEALTH THERAPY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    AN EXAMINATION OF VETERAN ACCESS TO 
                    TRADITIONAL AND ALTERNATIVE FORMS
                        OF MENTAL HEALTH THERAPY

=======================================================================

                                HEARING

                               BEFORE THE 


                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, FEBRUARY 20, 2014

                               __________

                           Serial No. 113-52

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
         
                                ____________
                                
                                
                                
                           U.S. GOVERNMENT PUBLISHING OFFICE
86-728                          WASHINGTON : 2015                           
_______________________________________________________________________________________        
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d7a6d725d7e686e697578716d337e727033">[email&#160;protected]</a>  
       
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
BILL FLORES, Texas                   DINA TITUS, Nevada
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
JON RUNYAN, New Jersey               RAUL RUIZ, California
DAN BENISHEK, Michigan               GLORIA NEGRETE McLEOD, California
TIM HUELSKAMP, Kansas                ANN M. KUSTER, New Hampshire
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRAD R. WENSTRUP, Ohio               TIMOTHY J. WALZ, Minnesota
PAUL COOK, California
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

                         SUBCOMMITTEE ON HEALTH

                    DAN BENISHEK, Michigan, Chairman

DAVID P. ROE, Tennessee
JEFF DENHAM, California              JULIA BROWNLEY, California, 
TIM HUELSKAMP, Kansas                    Ranking Minority Member
JACKIE WALORSKI, Indiana             CORRINE BROWN, Florida
BRAD R. WENSTRUP, Ohio               RAUL RUIZ, California
                                     GLORIA NEGRETE McLEOD, California
                                     ANN M. KUSTER, New Hampshire

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                      Wednesday, February 20, 2014

An Examination of Veteran Access to Traditional and Alternative 
  Forms of Mental Health Therapy.................................     1

                           OPENING STATEMENT

Dan Benishek, Chairman...........................................     1

                               WITNESSES

Kim Evans, Director Military Collaborative of Ventura County.....     5
    Prepared Statement...........................................    32

Lyndsey Hale, Veteran Liaison, VITAS Innovative Hospice..........     7
    Prepared Statement...........................................    34

Julie Sardonia M.A., LMFT, Founder/Executive Director Reins of 
  H.O.P.E., H.O.P.E. for Warriors Program........................     8
    Prepared Statement...........................................    35

Mike McManus, USAF (Ret), Veteran Service Officer, Ventura County 
  Human Services Agency..........................................    10
    Prepared Statement...........................................    38

Donna M. Beiter, Director, VA Greater Los Angeles Healthcare 
  System, VISN 22, Veterans Health Administration, U.S. 
  Department of Veterans Affairs.................................    21
    Prepared Statement...........................................    40

Accompanied by:

    Daniel Flynn M.D., Oxnard Community-Based Outpatient Clinic, 
        VA Greater Los Angeles Healthcare System, VISN 22, 
        Veterans Health Administration, U.S. Department of 
        Veterans Affairs

    Jane Twoombley, Ventura Vet Center, VA Greater Los Angeles 
        Healthcare System, VISN 22, Veterans Health 
        Administration, U.S. Department of Veterans Affairs

                   MATERIALS SUBMITTED FOR THE RECORD

The American Legion..............................................    46

Letter From Ventura Vet Center...................................    50



 AN EXAMINATION OF VETERAN ACCESS TO TRADITIONAL AND ALTERNATIVE FORMS 
                        OF MENTAL HEALTH THERAPY

                              ----------                              


                      Wednesday, February 20, 2014

              U.S. House of Representatives
                    Committee on Veterans' Affairs,
                             Subcommittee on Health
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
Grand Salon, California State University Channel Islands, 1 
University Drive, Camarillo, California, Hon. Dan Benishek 
[chairman of the subcommittee] presiding.
    Present: Representatives Benishek and Brownley.
    Dr. Benishek. The subcommittee will come to order.

           OPENING STATEMENT OF CHAIRMAN DAN BENISHEK

    Good morning, and thank you all for being here today.
    I am Dr. Dan Benishek, a congressman from Michigan's 1st 
District, the northern half of Michigan, and I am honored to 
serve as the chairman of the Subcommittee on Health on the 
House Veterans' Affairs Committee.
    It is my pleasure to be joined here today by your 
congresswoman and my colleague, the ranking member, Julia 
Brownley. I am grateful for Ms. Brownley's hard work and 
leadership on our subcommittee over the last year, and I am 
grateful to have an opportunity to join her here in beautiful 
Camarillo with all of you.
    Yesterday I paid a visit to the West L.A. Department of 
Veterans Affairs Medical Center. While I was there, I met with 
the medical center's leaders, some of them who are here with us 
this morning, and we toured the West L.A. campus to see 
firsthand some of the programs and services that are available 
to veterans here in the greater Los Angeles area.
    Having spent 20 years as a surgeon at the Iron Mountain VA 
Medical Center in my hometown of Northern Michigan, I enjoyed 
working with many of the health care professionals and support 
staff who have dedicated their careers to providing timely and 
high-quality care. I would like to take a moment to personally 
thank each and every one of them for their dedication to our 
nation's veterans and their families.
    It is clear from my visit yesterday and from the testimony 
we are going to hear this morning that there are some very 
exciting things going on here in Southern California for our 
veterans.
    Today we are going to hear from an array of local providers 
and organizations about the steps that still need to be taken 
both in this community and at others around the country to 
improve the provision of mental health care to our veterans in 
need using both traditional and, where appropriate, alternative 
therapies and treatments. We will discuss ways that we can all 
work together--Congress, VA, community-based groups, and 
dedicated citizens like all of you who are in our audience 
today--to increase effective and meaningful partnerships 
between Federal programs and the community resources that are 
increasingly stepping up to meet unmet needs, provide a 
critical bridge to care, and help our veterans across America.
    Although the Department of Veterans Affairs is tasked with, 
as President Lincoln said, caring for him and now her who has 
borne the battle, a Federal department cannot and should not 
attempt to meet all our veterans' needs alone. We know from 
recent research that more veterans seek care outside the VA 
health care system than within it, and that a majority of our 
veterans have access to private insurance or other health 
coverage.
    In order to fully and most effectively meet the needs of 
today's veterans, VA must be willing to reach out and work with 
responsible community partners and try, where suitable, 
promising new approaches to care. I look forward to our 
conversation this morning to hearing the ideas that we will 
discuss here, and to bringing those ideas back to Washington so 
we can start working in other communities around this country.
    I thank you again for being here this morning and for your 
dedication to our veteran neighbors.
    Before I conclude my opening statement, I would like to ask 
all of our veterans in the audience today to please stand, if 
you are able, or raise your hand and be recognized.
    [Applause.]
    Dr. Benishek. Thank you so much for your service. It is an 
honor to be here with you this morning.
    With that, I will recognize your congresswoman and my 
colleague and friend, Julia Brownley, for her opening 
statement.
    Ms. Brownley. Thank you, Mr. Chairman. And I want to thank 
you particularly for continuing to keep the issues of access, 
quality, and timely mental health services provided to our 
veterans at the forefront of this subcommittee. Your work is 
certainly extraordinary.
    And I want to also thank Dr. Rush and the very great Cal 
State Channel Islands and the Channel Islands community for 
hosting us today. And I want to thank all of our witnesses 
today for coming and talking with us about the critical issue 
of veteran mental health access and treatments.
    I would also like to thank all of you in the audience and 
our veterans who are here today in support of our veterans, not 
only here but across our country.
    I believe caring for our veterans is the utmost 
responsibility of our nation. As these brave men and women have 
sacrificed so much, the country must ensure that adequate 
resources are available and effective programs in place to 
address the varied and individual needs of our veterans during 
and after their very own unique and personal transition to 
civilian life.
    The mental health programs are particularly important in 
light of the unique dangers and stress of the recent conflicts. 
Long and multiple deployments and the nature of guerilla 
conflict have taken their toll on our service members. The 
spouses and families have borne the burden, as well. And we 
cannot forget our older veterans, who suffer as well from the 
traumas of war, and suffered before traumatic brain injury and 
post-traumatic stress have become sort of the signature wounds 
of the current Iraq and Afghanistan wars.
    The Veterans Health Administration spent $6.2 billion on 
mental health programs in Fiscal Year 2013 nationwide. It is 
this committee's responsibility to ensure positive progress and 
successful outcomes, and that this funding has been applied to 
the goals for which it was intended and the programs are 
working and improving for every veteran who needs them.
    Today's hearing will examine the progress VA has made in 
serving veterans here, right here in my own district of Ventura 
County.
    I want to thank the chairman once again for agreeing to 
come and allowing the veterans in Ventura County to be heard.
    Mr. Chairman, you will learn that we are very lucky folk 
here in this county because we are a county that is determined 
to properly look after our veterans. Our Ventura County 
Military Collaborative, for example, operates mostly without 
any Federal funding at all and relies on many, many volunteers 
who hold a very deep and patriotic pride and responsibility 
that our veterans deserve our service for the service that they 
have sacrificed for our country and its freedom.
    I look forward to hearing from the panels on how the use of 
community programs and resources have assisted the Veterans 
Health Administration in resolving access to care issues for 
veterans and their families here in Ventura County and Greater 
Los Angeles.
    I also want to hear what further actions are needed to 
increase effective and meaningful partnerships between the 
community and the Department to provide needed services here 
locally so our veterans can heal right here in their own 
community.
    I read with interest the testimony from the witnesses who 
are experts in their own right. Ventura veterans have access to 
a wide variety of programs and services, but we also need the 
attention of the Department of Veterans Affairs on several 
issues, such as wait times and local services. I am very 
interested to hear about the availability and efficacy of 
alternative therapies that are offered to our veterans here in 
Ventura.
    I would also like to hear about any recommended 
enhancements to services that will assist our veterans in their 
search for the right type of treatment for them and a timeline 
that will eliminate any unmet needs here in Ventura County. I 
am hopeful that this will be an honest, open discussion on ways 
to provide the care needed through more partnering with the VA 
and the private sector to increase the pool of providers and 
other creative ways to address the gaps in mental health 
treatment and services.
    And finally, I would like to thank the Los Angeles VA for 
being here today and for the dedication of so many VA employees 
who provide quality mental health care to our veterans every 
single day. Thank you for all that you do for our nation's 
veterans. We just need to be absolutely committed and 
understand that we need to do more.
    And with that, Mr. Chairman, I will yield back.
    Dr. Benishek. Thank you, Ms. Brownley.
    We are going to begin the hearing today with our first 
panel of witnesses who are already sitting at the table there. 
I am going to yield to Ranking Member Brownley in a minute to 
introduce the witnesses, but I would like to thank them all for 
their presence today and for what they do for our veterans.
    I would like to gently remind you that we are going to try 
to stay on time. We have a little timer which turns yellow 
after 4 minutes and then turns red after 5. We just want to 
gently--we may go over a little bit because I think hopefully 
we will have some good discussion--but try to keep that in 
mind.
    So with that, Ms. Brownley, would you please introduce our 
panelists?
    Ms. Brownley. Our first panelist is Kim Evans, who is the 
Director and Founder of the Military Collaborative of Ventura 
County. She is a military spouse and a licensed marriage and 
family therapist, and the Director of Psychological Health for 
the 146th Airlift Wing of the National Guard.
    Our second panelist is Lyndsey Hale. Lyndsey is also a 
military spouse. She is the second Vice President of the 
American Legion Auxiliary Unit 741, the Ventura County Military 
Collaborative board member, and a veterans' liaison for VITAS 
Innovative Hospice Care.
    Our third panelist is Julie Sardonia, Executive Director 
and Founder of Reins of H.O.P.E., which stands for Human 
Opportunity Partnering with Equines. I have recently had the 
distinct pleasure of experiencing firsthand how this 
organization has helped to heal so many of our heroes here in 
Ventura County with great honor.
    And the fourth and final panelist is Mike McManus. Mike is 
the County of Ventura Veterans Services Officer. Mike himself 
is an Operation Iraqi Freedom vet and retired after 20 years of 
service. Every veteran in Ventura County knows Mike McManus, 
and we are lucky to have him, and we all know the important and 
selfless service that Mike provides here as a service officer 
and brings that service to Ventura County.
    So, thank you very much, Mr. Chair.
    Dr. Benishek. Well, let's begin.
    Thank you, Ms. Logie, Evans Logie. Please proceed with your 
testimony. Thank you.
STATEMENTS OF KIM EVANS LOGIE, LMFT, DIRECTOR, MILITARY 
COLLABORATIVE OF VENTURA COUNTY; LYNDSEY HALE, VETERANS 
LIAISON, VITAS INNOVATIVE HOSPICE; JULIE SARDONIA M.A., LMFT, 
FOUNDER/EXECUTIVE DIRECTOR, REINS OF H.O.P.E., H.O.P.E. FOR 
WARRIORS PROGRAM; MIKE MCMANUS, USAF (RET), VETERAN SERVICE 
OFFICER, VENTURA COUNTY HUMAN SERVICES AGENCY

                  STATEMENT OF KIM EVANS LOGIE

    Ms. Evans Logie. Good morning. I am really nervous. I am 
Kim Evans Logie, military spouse and licensed marriage and 
family therapist. I am one of the leading mental health experts 
in the state of California in regards to military and veterans' 
issues. I have trained over 1,300 mental health professionals 
on military mental health and have briefed over 8,000 service 
members and their loved ones on pre- and post-deployment 
issues.
    I have worked as a TriWest embedded therapist, Joint Family 
Support Assistant Program Military Family Life Consultant, and 
the Director of Psychological Health for the 146th Airlift 
Wing.
    Last year I spent four weeks at Lackland Air Force Base 
under Federal subpoena as a defense witness forced to testify 
against one of my airmen who had been sexually assaulted.
    I am the community liaison for the Ventura County Superior 
Court Veterans Treatment Court and the Director of the Ventura 
County Military Collaborative.
    I have had the distinct pleasure of serving the men and 
women of the United States military and know too well the 
mental health issues associated with combat service and 
military sexual trauma.
    That being said, in Ventura County we use a combination of 
inpatient, outpatient, alternative treatments, and homegrown 
community-based support to help our veterans. For outpatient 
clinics and services we utilize the Ventura Vet Center, because 
they rock, for combat, substance abuse and military sexual 
trauma veterans. We use the VA contracted facility at Oxnard 
for psychiatric and mental health treatment, and we utilize the 
VA at Sepulveda.
    For inpatient services we utilize West L.A. VA; the Pathway 
Home at Yountville, a privately funded facility which does 
phenomenal work and is free to veterans; and Aurora Vista del 
Mar, a local psychiatric facility which just received a VA 
contract for their PTSD unit, but we are being told that intake 
and referrals will have to come through West L.A. VA. Many 
veterans will not be able to drive to LA for intake due to 
transportation and/or medical issues, thus making the contract 
virtually worthless.
    The alternative forms of treatment in our local area are 
the Soldiers Project, which provides free military mental 
health; our Crisis Intervention Team training from our local 
sheriff's department, which trains local law enforcement 
officers to deal with military and veteran mental health 
issues; the Ventura County Military Collaborative, which has 
over 140 agencies working together to create a safety net of 
care for military veterans and their families; and the Ventura 
County Veterans Treatment Court, which provides wrap-around 
services and treatment for local vets.
    These services are funded primarily through grants or not 
at all. The Ventura County Military Collaborative operates 
without funding, relying on volunteers, donated meeting space, 
and a community that does not hesitate to support it and its 
yearly military veteran expo.
    As far as the role traditional and alternative forms of 
therapy play in our veteran recovery process, it is my belief 
that without proper care and coordinated mental health care I 
have no doubt that the men and women who serve our great nation 
would end up in situations much worse than we are currently 
seeing.
    Our service members and their families are tired, they are 
scared, and they are proud. Consistency, training, caring and 
knowledge of community resources are imperative for all 
clinicians working with veterans. These are the cornerstones to 
successful military mental health treatment.
    I would also like to point out that the VA is doing some 
great things. We have Paul Gaines, our local VA homeless 
outreach representative, who I believe never sleeps. He 
interfaces with community agencies and law enforcement to help 
find veterans shelter and mental health/substance abuse 
treatment.
    Greg Cain is our VA Jail Outreach Coordinator and a key 
player at the Ventura County Veterans Treatment Court. He works 
24/7 to get our local vets into resources that they need.
    Charles Green is the face of VA for many of our National 
Guard and Reservists. He arranges clinics and briefings to help 
enroll our local service members and does the VA outreach for 
Ventura County from Los Angeles.
    The obstacles we face. Exclusions of licensed marriage and 
family therapists at VA facilities, which hire licensed 
clinical social workers instead. Both are Master's degree 
clinicians.
    We have lengthy waits at our local clinic for psychiatric 
and mental health services. We have veterans completing an 
inpatient program at West L.A. VA, which has no apparent 
coordination of care with local resources for their return to 
Ventura County. We have a need from our localized services 
through VA grant per-diem funding, and we need to create a 
sense of community with our local vets when their treatment may 
involve multiple facilities at multiple locations.
    In closing, having been involved with military mental 
health for over 10 years, I am so impressed by what we have 
accomplished. The stigma which was so prevalent when I first 
started has disappeared in most units and commands, especially 
those who have embraced an embedded therapist model. I am proud 
of the work that we have done, and it has made a difference. We 
are saving lives.
    I thank you for your time and for your caring about those 
who have served this country in its time of need. Thank you.

    [The prepared statement of Kim Evans Logie appears in the 
Appendix]

    Dr. Benishek. Thanks. You did a great job.
    Ms. Evans Logie. Thank you.
    Dr. Benishek. Ms. Hale, you may proceed with your 
testimony. You have 5 minutes.

                   STATEMENT OF LYNDSEY HALE

    Ms. Hale. Good day. My name is Lyndsey Hale. Again, I am a 
military spouse, 2nd Vice with the American Legion Auxiliary 
Unit 741, a Ventura County Military Collaborative Board member, 
and a veterans' liaison for a hospice provider.
    Regarding mental health and resources for our veterans, it 
is especially meaningful for those veterans who left comrades 
on the field of battle as they enter their senior years near 
end of life.
    There is a quote from Will Rogers that goes, ``We can't all 
be heroes. Some of us have to sit on the curb and clap as they 
go by.'' Although in more recent years we do our share of 
clapping, recognizing and honoring our veteran, we need to do 
more to provide the resources and support for our veterans in 
regards to mental and spiritual health, particularly as they 
near end of life.
    There are over 21 million living veterans, 45 percent of 
which are over 65 years of age, according to the Census.gov 
website. As a military spouse, daughter of a Vietnam-era 
veteran, and granddaughter of World War II veterans, I am 
humbled to be able to speak in regards to the need for 
resources and support for our veterans of any age, and 
particularly to advocate today for our elderly veterans.
    In the American Legion Auxiliary outreach and in working in 
hospice, I hear many stories through visiting and speaking to 
our veterans that they have never told or not brought up in 
years. These veterans of war are holding memories of horrors 
one, like myself, who has not seen battle, cannot comprehend.
    I was speaking to a World War II veteran, a Pearl Harbor 
survivor, who told me he had three times been spared his life 
during World War II while he watched his comrades in arms die, 
while he had to pick up their remains and count the bodies. He 
told me that the third time his life was spared, he was on a 
ship at sea and had just left his post to go back to the galley 
for coffee. While he was in the galley, the ship was attacked. 
Later, as he was walking the ship with the lieutenant and 
pulling dog tags for those that had been killed, he came to his 
post where he should have been, and there in his place was the 
lower half of a man's body. The man covering his seat was 
literally cut in half by the explosion from the torpedo that 
hit the ship. He said that he started laughing hysterically at 
this point and he lost it. He said his lieutenant then slapped 
him in the face to bring him back to reality.
    This World War II hero told me that he would never forget 
those images, and that now that he is in his late 90s, they 
come to him more and more. This is just one of the many stories 
I have heard. Other stories involve questions and remorse for 
those they may have killed in battle. These World War II 
veterans wonder what will come of their souls as they leave 
this life.
    I believe our veterans often just need to get these stories 
off their chest, things that they have never spoken of to 
anyone for fear of the judgment that would follow. I can't tell 
you how many times I have heard a spouse say, ``Yes, he served 
in the war, but he never talks about it.''
    PTSD is a common term these days that we are trying hard to 
address and assist our returning troops with. I personally have 
had many a friend come home in recent years broken from war. We 
need to continue to support and grow our resources for our 
military and veterans of recent wars. In saying that, we cannot 
forget the veterans of our past wars such as our World War II 
vets. They came home to a nation as heroes, yes, but there was 
no diagnosis for their mental well-being. There was no PTSD 
support. They often just stifled it, at times self-medicated 
and moved on. The bonus for this World War II and Korean 
Conflict generation was that many of our men and families were 
touched by it or involved directly in it, and so they had 
comfort in numbers, unlike today.
    However, as this tough, proud generation ages, they have 
questions and fears that they have never been able to address. 
Our veteran that returns home from combat, that buried their 
brother in arms, may not have lost an arm or a leg, but they 
are not whole. As I said earlier, we cannot all be heroes. But 
as military veterans who stood up to protect our country, it is 
our job to not just sit on the curb and clap but to then stand 
up for our veterans as they come home.
    As an American Legion Auxiliary member, I know that our 
American Legionnaires and Auxiliary members are constantly 
thinking about better ways to reach out to our senior veterans 
through our vet-to-vet volunteers, finding ways to recruit 
local military to visit our elderly veterans and get them 
information on programs such as the We Honor Our Veterans 
Program, the Spirit of '45 Movement, resources such as our 
H.O.P.E. for Warriors, the local vet center, county veterans' 
service office, our Oxnard Family Circle veterans services. We 
bring these to support our greatest generation, but we need 
more awareness and support in our health care community and the 
general public.
    I ask you today to help find a way to reach out to our 
Greatest Generation veterans through increasing friendly 
visitor programs as this is a generation that responds to 
people-to-people interactions, so we can let them know that 
there are support and resources for them too, and that it is 
okay for them to talk about their time in service.
    Thank you for your time and attention to these matters and 
your work on making a difference in the lives of our veterans 
and their families.

    [The prepared statement of Lyndsey Hale appears in the 
Appendix]

    Dr. Benishek. Thank you, Ms. Hale. Nice job.
    Ms. Sardonia, you are recognized for 5 minutes.

                  STATEMENT OF JULIE SARDONIA

    Ms. Sardonia. Thank you and good morning, Chairman Benishek 
and Ranking Member Brownley.
    On behalf of Reins of H.O.P.E., as the Executive Director 
and Founder, I have gratitude by sharing our story here today 
about our Equine Assisted Psychotherapy Program, H.O.P.E. for 
Warriors.
    Imagine this. You are a Navy Sea Bee, just back from your 
second deployment in Afghanistan. You feel forgotten half the 
time and alone much of the rest. To your invisible wounds of 
PTSD you have applied anti-depressants, sleeping medications 
and alcohol. Not one provides a lasting balm, but a series of 
links in a human chain will soon land you in an arena standing 
next to a horse named Chrome. He is big and white and muscled, 
but he is gentle, and in him, with a bit of human help, you 
begin to find a vessel to hold your grief and your anger.
    You return for another session, and another, and each time 
you pat Chrome goodbye, you are closer to the person you were 
before war.
    When you re-enlist, you hold your ceremony in the arena 
that gave you yourself back, with Chrome and his buddies 
bearing witness to the transformation that has brought you home 
to wholeness.
    Reins of H.O.P.E. was established in 2006 as a non-profit 
serving our local at-risk youth population. Our tool is Equine 
Assisted Psychotherapy and Learning. All of our licensed mental 
health therapists and equine specialists are trained and 
certified by EAGLALA, which is Equine Assisted Growth and 
Learning Association. It is the world's largest and most 
professionally respected association for this type of 
psychotherapy. They set the standard of care. They have over 
4,000 members in 49 countries. It also has the EAGLALA Military 
Services Designation, which we are a part of, that ensures that 
all practitioners must complete specialized training in various 
mental health issues with the military.
    Even though equine assisted psychotherapy is a new 
discipline of 15 years, EAGLALA is committed to helping build a 
body of evidence-based, peer-reviewed research.
    In January of 2011, Reins of H.O.P.E. launched the H.O.P.E. 
for Warriors Program to provide active-duty veterans, 
reservists, and all their family members with no-cost, 
unlimited, confidential sessions to fill the increasing need 
for vital, readily accessible mental health services. We 
provide on-the-ground sessions for individuals, couples, 
families, groups, overnight retreats for women, and team-
building sessions. This program accounts for 80 percent of our 
non-profit program.
    Our sessions between client and horse allow exploration of 
thoughts, feelings and behaviors, and fosters trust, resilience 
and adaptability. These inevitably lead to better problem 
solving, improved communication, and healthier relationships. 
Many clients have told us that out in our arena, horses have 
created the only space where they feel safe to talk about their 
military experiences and issues. It is actually a natural 
connection.
    Like us, horses are herd animals whose survival depends on 
constant communication. Unlike humans, horses are prey animals. 
They must stay constantly vigilant. Uniquely responsive to 
their surroundings, they sense emotional energy around them and 
often mirror it, which allows for insights and metaphors for 
our military members to deal with their thoughts and their 
behaviors.
    They also model for the client a new way of being. Powerful 
yet gentle, these animals are effective ambassadors of nature, 
as well as apt teachers in awareness--that is, being in the 
present moment, calming oneself quickly, setting appropriate 
boundaries, and learning to trust. These are coping skills that 
are key to healing and health.
    Transition, reintegration, depression, PTSD, military 
sexual trauma, substance abuse, anger and grief are all helped 
by this relationship between horses and human.
    Josette Wingo, our World War II Navy veteran, she states, 
``I realize how being with the gentle, intuitive horses and 
their calming effects can have life-changing possibilities. 
Their effect on me was almost instantaneous.''
    Larry, our Vietnam veteran, stated, ``It allows me to relax 
enough to be able to communicate with people freely. I feel 
like I am worth something there. They really care, and I want 
to see this program expand to other veterans.''
    H.O.P.E. for Warriors Program has conducted over 684 
clinical hours and over 530 sessions at no cost to any family 
member or veteran. We are solely funded by community donors, 
foundations and grants. It is our intention and mission never 
to turn away a veteran in need, and we seek a collaborative 
relationship with the VA and their providers so we can provide 
this vital program.
    Our further goal is to increase the awareness of 
alternative treatment. We are effective and an appropriate 
level of care for our veterans. So in order for us to reach out 
and help our growing population, we collaborate with Fleet and 
family services, Ventura Vet Center, Vista del Mar, Oxnard 
Family Circle, SART, and the Military Collaborative.
    You may be wondering about that Sea Bee that I shared. Her 
name is Sarah Hedge. She is right over there. She is a second-
class petty officer. After working with Chrome, she returned to 
serve two more deployments, and she states, ``I attribute my 
healing process of PTSD to the relationship with the horses and 
the specific activities out in the arena. They helped get my 
life back, and I am happy.''
    Thank you for the opportunity to introduce Reins of 
H.O.P.E. and H.O.P.E. for Warriors program today.

    [The prepared statement of Julie Sardonia appears in the 
Appendix]

    Dr. Benishek. Thank you very much.
    Mr. McManus, you may proceed with your testimony.

                   STATEMENT OF MIKE MCMANUS

    Mr. McManus. Good morning, Chairman Benishek, Ranking 
Member Brownley. Thank you for the opportunity to provide 
information to the committee regarding mental health care 
services to Southern California veterans through the Greater 
Los Angeles Department of Veterans Affairs Healthcare System.
    My name is Mike McManus and I am the County of Ventura 
Veteran Services Officer. My staff and I connect fellow 
veterans, their dependents and survivors with Federal and state 
benefits, as well as local resources. One of our primary 
responsibilities is connecting veterans with VA disability 
compensation for such conditions as post-traumatic stress, 
traumatic brain injury, and for conditions resulting from 
military sexual trauma. We also assist veterans enroll in VA 
health care and refer them to local and regional treatment 
resources.
    The Veteran Services Office has five accredited personnel 
who interview veterans, file the appropriate benefit claim, 
advocate on behalf of the veteran, and make needed referrals to 
other service providers. We also have support staff to include 
our interns that enable us to meet our client needs. The 
Veteran Services Office has conducted a variety of outreach 
activities to inform the veteran community about their earned 
benefits. The office currently operates out of the main office 
and nine field offices to make it as convenient as possible for 
our veterans to meet with us.
    In Fiscal Year 2011/2012, the office saw 1,839 veterans. 
However, last fiscal year, 2012/2013, office staff had seen 
3,572 veterans. In Fiscal Year 2010/2011, the Veteran Services 
Office connected county veterans with $3.89 million in Federal 
benefit payments, but by Fiscal Year 2012/2013, those benefit 
payments totaled over $8.75 million.
    In addition to being the county's veteran service officer, 
I am also a retired Unites States Air Force Senior Master 
Sergeant. I spent the last seven years of my 20 years in the 
military as a First Sergeant, with one deployment for Operation 
Iraqi Freedom in 2003. As a First Sergeant, I had overall 
supervision over all enlisted personnel within my units. I 
advised the unit commanders on matters affecting their enlisted 
force to include issues involving mental health and substance 
abuse, and those conditions' impact on the service member, 
their families, their career, and the unit.
    Ventura County veterans needing mental health care can 
receive treatment from the two psych doctors and one social 
worker at the Oxnard Community-Based Outpatient Clinic, the VA 
clinic. Veterans can also seek counseling from the four 
clinicians at the Ventura Vet Center.
    Ventura County has over 41,000 veterans, thousands more 
National Guard, Air National Guard, and Navy and Marine Reserve 
personnel who are eligible for VA mental health care after 
serving a deployment. Navy Base Ventura County's active-duty 
Navy personnel, who are combat veterans, can also receive 
mental health care from the Vet Center.
    In essence, you have tens of thousands of veterans and 
military personnel in Ventura County, and many of these 
individuals will seek mental health care from the seven people 
providing mental health treatment from the VA.
    Clearly, there is a large unmet need. The VA clinicians 
providing mental health care in Ventura County do an 
extraordinary job; there are simply too few of them. As 
outreach to the military and veteran community increases from 
organizations such as my office, the Ventura County Veteran 
Services Office, and through the Ventura County Military 
Collaborative, the number of veterans seeking services 
increases.
    Veterans routinely tell my staff and I how they can only 
see the psychiatrists at the Oxnard VA Clinic every other 
month, or maybe once every third month. The option to be seen 
by a clinician at Sepulveda exists. However, in many cases we 
are referring to combat veterans with post-traumatic stress 
driving the I-405, which only adds to their stress and their 
anxiety.
    Ventura Vet Center staff have done an amazing job trying to 
meet the mental health needs of our veterans. However, there 
are only four clinicians. I wholeheartedly encourage the VA to 
add clinicians to the Oxnard VA Clinic and to the Ventura Vet 
Center. In addition, clinicians could then provide treatment 
during evening hours and on weekends. This will improve access 
to care for veterans who are going to college, who may be 
recovering from service-connected injuries, as well as those 
who might be employed.
    In addition to increasing the number of clinicians at the 
Oxnard VA Clinic and the Ventura Vet Center, the VA needs to 
explore partnerships with community programs and resources, and 
more quickly assess and adopt alternative mental health 
treatments. I would suggest the VA establish contracts with 
mental health and substance abuse counselors for inpatient and 
outpatient treatment in Ventura County. An example of such 
cooperation is the newly awarded VA contract to Aurora Vista 
del Mar to provide post-traumatic stress treatment. Previously, 
they treated veterans eligible for Tricare. The VA contract 
will now enable a much larger pool of county veterans to 
receive the benefit of their services.
    Inpatient and intensive outpatient resources' availability 
in Ventura County will greatly benefit our county's veterans. 
Programs such as that at Aurora Vista del Mar would allow 
veterans to remain in Ventura County nearer their support 
structures and enable some to continue their employment while 
receiving outpatient care. This option would not be appropriate 
for all veterans and some would certainly still receive 
treatment through one of the programs at the VA Medical Center 
in Los Angeles. In many instances, however, treatment provided 
in-county is the option best suited to the veteran.
    One example of how the option of in-county treatment could 
benefit veterans is through the Ventura County Superior Court's 
Veteran Court. Veteran Court focuses on treatment, not 
incarceration, of our combat veterans with post-traumatic 
stress, traumatic brain injury and the resulting behavior 
problems, substance abuse issues, and run-ins with law 
enforcement. Currently, most veterans in Vet Court needing 
inpatient or intensive outpatient treatment go to the VA 
Medical Center in Los Angeles. Ventura County veterans deserve 
the option to receive inpatient and intensive outpatient 
treatment in their home county. We have high hopes that the 
Aurora Vista del Mar program will offer these options.
    Partnering with other non-VA service providers to expand 
the availability of treatment would greatly benefit our 
veterans. We are fortunate in Ventura County to have the equine 
therapy program, Reins of H.O.P.E, that has proven itself 
invaluable to our combat veterans and others who have 
experienced military-related trauma. A VA contract or the 
possibility of a quick fee-basis referral would greatly help 
meet the need for mental health treatment.
    The VA's willingness to assess and accept alternative 
treatments is what is called for to meet the needs of our 
veterans. A couple of programs in Ventura County are meditation 
therapy and farming. Healing in America, of Ojai, California, 
offers meditation services as a way for veterans to heal. In 
addition, Veteran Farmers of America in Ventura is developing a 
program and has experienced promising early results that have 
shown the benefits of their farming intern program.
    The VA should actively solicit data on the effectiveness of 
complementary and alternative therapies so that veterans can 
get the best access to the mental health care that they need. 
Alternative therapies in conjunction with VA-provided care need 
to work in concert with one another to meet veterans' needs. 
Our veterans have earned such care.
    Thank you again for this opportunity.

    [The prepared statement of Mike McManus appears in the 
Appendix]

    Dr. Benishek. Thank you very much, Mr. McManus. I truly 
appreciate your comments.
    I am going to yield myself about 5 minutes for my comments 
and some questions for the panel.
    First of all, Ms. Hale, your testimony struck me because it 
reminded me of a pet project of mine, the Veterans History 
Project. You are relating the stories of--I am not sure if 
people here are aware, but the Library of Congress has a 
Veterans History Project that encourages young people 
especially to interview a veteran just to get their story, and 
I would encourage that program for people that you know, not 
only the veterans but the young people that can take a history, 
basically, from veterans, and get a veteran to meet a young 
person, and let a young person get to know some of the 
experiences our veterans have had. So I just wanted to kind of 
promote that project because it is near and dear to my heart.
    Ms. Logie, you talked about some of the obstacles in your 
testimony, working with VA there, and maybe you can expand on 
that. ``Obstacles we face,'' is the way you put it in your 
written testimony. Could you expand a little bit about those 
things that you mentioned in your testimony?
    Ms. Evans Logie. Sure. The waits at our local clinic for 
psychiatric and mental health services, I have had waits up to 
four months for medication refills for anti-depressants for 
some of our National Guard members. So I have actually sent 
some back to their local facility. So if they are from San 
Francisco, I have actually sent them back to San Francisco. 
They have driven back to San Francisco to get their medications 
because we have had a backlog here locally.
    That happened a couple of times, and then I actually don't 
refer there anymore.
    Dr. Benishek. So is there good communication between the 
immediate medical center and the local clinic? You also 
mentioned that, too, that you are concerned about the follow-up 
from the local care and the overall care from the medical 
center.
    Ms. Evans Logie. There are two different issues. We have 
West L.A. VA, where a lot of our veterans go for inpatient 
treatment. That is primarily where they go, especially from our 
Veterans Court, and we do have follow-up through RGO outreach 
coordinator, Greg Cain. He is excellent with follow-up. But 
what we don't seem to have is any type of formal treatment plan 
in place that I have seen.
    So, say, the domiciliary releases one of our members, one 
of our veterans from inpatient treatment. There does not seem 
to be a liaison with our vet center in Ventura County saying, 
hey, Bob is being discharged, we would like him to do 
individual outpatient, or what type of substance abuse groups 
do you have, or anything like that.
    As far as our local clinic, I hate to say it but today was 
the first time I have met anyone from our local clinic, from 
Ventura County.
    Dr. Benishek. That seemed to me to be an underlying theme 
of all the testimony here, that getting care done locally here 
in Ventura County seems to be an issue, and the communication 
between--you know, I come from a rural area, too. So sometimes 
we have to drive hours to get to the VA medical center. Here, 
getting on the 405 seems to be the issue, you know what I mean? 
So I certainly understand. Why don't they have more access to 
local providers? Not only that but Mr. Lewis, who I talked to 
earlier, mentioned that he is trying to get some physical 
therapy here but doesn't want to get on the 405 for three hours 
to get physical therapy on a regular basis. Why can't he get 
that right here?
    How could they do that better? I know VA has got a program 
coming up. I don't know what it is called. The PC3? Where they 
are going to try to get more people involved. Obviously, it 
doesn't sound like it has been working very well. Does anyone 
else have any comments?
    Mr. McManus. Mr. Chairman, we deal a lot with the Oxnard 
Clinic and the administrator, Laurie Berry, and the doctors 
there, and they are doing some good things. However, again, in 
my testimony, between veterans and active-duty Guard and 
Reserve, we are talking over 50,000. I think it is merely a 
numbers type of thing, just the access. There is only a certain 
volume they can handle with the current staffing. If the 
staffing doesn't increase, just the sheer physical layout of 
the clinic has probably reached its maximum. I am sure the VA--
--
    Dr. Benishek. Is that the Oxnard Clinic, then?
    Mr. McManus. The one in Oxnard. Yes, sir.
    And another big thing is just the ability to have someone--
we used to have an individual there who would do what we call 
intake and eligibility. In other words, are you even eligible 
for VA health care. They had an individual that was there 
probably two-and-a-half years ago now. However, when he left, 
the clinic lost the ability to do the intake and the 
eligibility. So now it is either done online or it is mailed 
down to West L.A. so they can determine if someone is even 
eligible for VA health care.
    So one of the things that would be helpful is if they 
actually had an intake and eligibility individual right there 
in the clinic. That would also help address some of the issues 
with referrals to Aurora Vista del Mar and those kinds of 
things. So I think one place to start might be an intake and 
eligibility individual in the clinic.
    Dr. Benishek. All right. Thank you.
    Mr. McManus. Thank you.
    Dr. Benishek. We are going to go back and forth a little 
bit because my 5 minutes went by so fast. I am going to yield 
to Ms. Brownley for 5 minutes. She may have some questions, as 
well.
    Ms. Brownley. Okay. I have a lot of questions, but a 
limited amount of time. I want to thank, again, all of you for 
being here and everybody here in the audience, because 
everybody who is here all have a direct concern about how we 
are providing for our veterans here in Ventura County. So thank 
you very, very much.
    Ms. Evans, you don't mind if I call you Ms. Evans?
    Ms. Evans Logie. No, that is fine.
    Ms. Brownley. Okay. I just wanted to follow up, too, on 
your testimony when you talked about the outreach component and 
that really we are not doing any local outreach, that the 
outreach takes place out of the West L.A. facility.
    Can you talk a little bit about that? I am presuming it 
means that that outreach is probably not as effective. But if 
you could just talk a little bit further about that.
    Ms. Evans Logie. Okay. In Ventura County with the 
Collaborative, we have 140 agencies on board. So we have what I 
think we would all say is an incredible network of care here 
locally. Included in that network of care are our three big 
guns out of L.A., which is Charles Green, Greg Cain, and Paul 
Gaines. They are there. They are the face of VA in Ventura 
County, whether you are on a military installation, whether you 
are at the jail, whether you are at a Collaborative meeting. 
They are everywhere.
    My understanding is our local clinic at Oxnard has never 
had an outreach individual hired for that clinic. One of the 
other issues--like my husband just got rated through VA. All of 
his stuff was done in L.A., for his rating, and other areas. We 
were never given a list of local services. No one ever said, 
hey, you guys are in Camarillo, the Oxnard Clinic can do this 
for you. I imagine we could go find it online, but it would 
make sense to say ``This is your local clinic, this is when it 
is open, here is our flyer, now go online,'' and there is none 
of that.
    So in my world, unfortunately, they don't really exist 
because I don't interact with them, ever. I am going to change 
that. I am sure it will change after today.
    Ms. Brownley. Very good, very good.
    And in terms of the equine therapy, I witnessed it, so I 
have a good sense of why it is, indeed, successful. Ms. 
Sardonia, if you would just talk a little bit about--because I 
certainly heard from some vets when I visited you. Just talk a 
little bit about the vets that you were serving and some of 
their stories and the reasons why they are coming to you and 
how their therapy has been virtually unsuccessful in a more 
traditional environment.
    Ms. Sardonia. Sure. Thank you for the opportunity. We do 
provide our services to active duty and veterans and their 
families. So we are seeing not only the veterans but the 
spouses. We are seeing grandchildren such as Larry, who lives 
with them. He is a Vietnam veteran. We see children because 
they are affected, as well.
    The stories that I hear, countless stories from everyone 
who is participating, is the fact that they do try traditional 
talk therapy. I am a traditional talk therapist, a marriage and 
family therapist of 21 years. I know it works, and I want to be 
able to use our services as adjunctive with VA providers or 
other MFTs or LCSWs or psychiatrists and psychologists in the 
community to do adjunctive work so that it is a team effort.
    So the majority of what we are working on they seem to be 
receiving from equine-assisted psychotherapy as addressing 
healthier coping skills. And because it is an action-based 
program, they are just not talking about it, they are now able 
to do it. So as you witnessed there, they are actively working 
with horses who are large animals who are very intuitive, who 
are helping them work through some of their stories they have 
never shared before, such as a lot of our men and women, and 
they feel comfortable talking to a horse.
    And it is not just talking to them. It is moving. It is 
doing. It is feeling. They are getting the ability to learn 
healthy coping skills. Whereas a horse would die out in public 
or in nature because of hyper-vigilance or whatnot, these men 
and women are learning how to be less hyper-vigilant by 
learning healthy coping skills to calm down, like a horse does.
    So when we have men out there with road rage or hearing 
loud noises that remind them of bombs and they are hiding 
underneath the table, they are saying if I didn't go to Reins 
of H.O.P.E. and learn how to calm myself down like a horse, I 
would have done a lot more damage out there. I hear story after 
story.
    I also hear that a lot of our participants may have taken 
their life if they didn't continue because they didn't want to 
go to a therapist. They didn't want to go to the VA because it 
was too hard or they couldn't get in, like Mr. Lewis. It takes 
a long time to get down there, even though he goes there. He 
comes up twice a week, once for our veterans group and once for 
individual therapy.
    So we have men and women coming more than once a week 
because they feel this alternative work is helping them feel 
more comfortable sharing, being able to tell their story, 
feeling heard, not to mention decreasing some of their anxiety 
and depression. The minute they walk with a horse they feel--if 
I were to take their blood pressure, it would have been calm.
    So I would love to be able to have a collaborative 
relationship with the VA to show that this does work. As you 
witnessed, you would really have to see it to understand it. 
There is research to back it up, and I can share that at a 
later time through the website with statistics.
    Ms. Brownley. And if there was a collaboration and there 
was additional funding, is there a demand that you are not 
being able to meet at this particular point in time?
    Ms. Sardonia. We are not turning away anybody. I am 
increasing my staff because of the increase of men and women 
and children who want to come. So instead of just having 
morning sessions, we are having morning sessions and then 
taking a break and bringing in a new herd, and there are 
professionals in the afternoon. We did get a large grant to do 
retreats for women veterans, which we are hosting our second 
one this Monday and Tuesday for women in California.
    So the demand is becoming greater, and so we may be trying 
to increase into Santa Barbara. We are hearing people say 
please bring Reins of H.O.P.E. to Santa Barbara for our 
veterans up there, as well as closer into Camarillo. I have 
heard we might put an arena in Somas so it is not as difficult 
for some to drive to Oaji.
    Gas is difficult. We have men and women driving from--I 
have a gentleman driving all the way from China Lake Air Force 
Base to come out. Four hours he drove in the snow with his wife 
and his daughter because he did not want to see a VA therapist 
on base. He came four hours in the snow on a Friday, and he 
said this is the only thing that is helping keeping him sane in 
order to continue to work.
    Ms. Brownley. Thank you. Thank you very much.
    Ms. Sardonia. Thank you.
    Ms. Brownley. And, Mr. McManus, you talked a little bit 
about a new relationship with Aurora Vista del Mar, and I know 
Ms. Evans also talked about the fact that our folks might have 
to go to L.A. to be assessed to see if they can utilize the 
services there. That sounds like an impediment to me. You 
already mentioned a local intake at the Oxnard Clinic would be 
helpful as well.
    But can you talk a little bit about what the possibilities 
would be with regards to this partnership and contract?
    Mr. McManus. Well, I certainly think we can move quickly to 
determine someone's eligibility for VA health care, and then 
hopefully increase the number of psych docs at Oxnard Clinic to 
put in that consult to quickly refer the veteran to Aurora, 
where it is an inpatient post-traumatic stress treatment and 
those types of things, as opposed to sending not just our Vet 
Court individuals but any veteran that needs that particular 
level of care.
    But just using our Vet Court folks, instead of everyone 
being channeled down to L.A. for inpatient or intensive 
outpatient treatment, the veterans have the ability to receive 
that treatment here in-county, especially if intensive 
outpatient treatment is what is required. And if you are able 
to use a Ventura County resource in order to fulfill either the 
probation requirement of the Vet Court or someone just needs 
that level of care that is not associated with the Vet Court, 
if you have to drive down to West L.A./Sepulveda for PTSD 
counseling and it is in the middle of the day, you could very 
well run the risk of losing your job.
    However, if it is provided here in-county, it is much less 
of a burden on the individual, and certainly gas and those 
types of things. So I think being able to streamline the 
referral process will greatly enhance the ability for us to get 
our county veterans into a county resource provided in the 
county.
    Ms. Brownley. Thank you.
    Mr. Chair, I apologize that I exceeded my time, but I 
appreciate the opportunity.
    Dr. Benishek. That is all right. I have a few more 
questions, too.
    Ms. Brownley. Yes, okay. Very good.
    Dr. Benishek. Since it is only the two of us, I think maybe 
we will do another round of questions. There is still enough 
time to get the second panel going, so that is no problem.
    I am going to yield myself 5 minutes for a second round of 
questions.
    What is the most common complaint and compliment that you 
hear from them about local veterans when you interact with the 
care and services from the Greater L.A. health care system? 
Give me a couple of examples of some good things and some--I 
think we are hearing about this lack of local care as the key 
issue, what I think I am hearing today.
    Maybe, Ms. Evans Logie, could you tell me?
    Ms. Evans Logie. Yes. As far as the care that my veterans 
receive at West L.A. VA and Sepulveda, it is exceptional. I 
mean, you have a group of dedicated men and women, and 
seemingly more so every year. The level of caring, which is how 
I gauge effectiveness, it is inspiring to see.
    I think some of the concerns that my veterans have locally, 
and our Guard and Reservists, the mileage. My husband was told 
to go for an intake two hours away, not a big deal for us. I 
mean, he has a job. We both have jobs. But when you start to 
think about perhaps a veteran who doesn't have a job and who 
has to make three separate copies of medical records, my 
husband's medical records were $70 a copy, and we had to make 
three copies because the original two were lost.
    Then you have transportation costs. We filled out a form 
that was hidden online from VA to get reimbursed for mileage, 
and that was six months ago. We haven't done that again. He had 
nine separate trips to VA to be looked at for nine separate 
injuries, which was great, and I am really glad they did that. 
But if you are impoverished, if you are in pain, if you have 
substance abuse issues, you don't have reliable transportation, 
these are all incredible barriers.
    We are doing wonderful things. We can do some things 
better. So I think as far as the treatment goes, everyone that 
I have talked to is fairly happy with their treatment. The 
issues are really the distance.
    Dr. Benishek. Right, right. Thanks.
    Ms. Hale, do you have any comment?
    Ms. Hale. Well, I would just like to echo that, that 
especially my elderly veterans don't drive, and definitely 
don't drive far. So getting someplace far away isn't an easy 
thing. A lot of our vets don't really want to go to the doctor, 
or don't believe in going on a regular basis. So for them to go 
and be told to go, and finally agree to go, and then now it is 
out of their comfort zone and it is out of their area, it is 
much more likely that they are not going to go. So that is why 
we have less of them using the resources than we have.
    Dr. Benishek. Ms. Sardonia, do you have an official 
relationship with VA? Or is all your stuff outside VA? That is 
the impression I got.
    Ms. Sardonia. Yes, it is all grassroots, no funding other 
than our community donors and our fundraiser and our grants.
    Dr. Benishek. The VA doesn't use your services as an 
adjunct?
    Ms. Sardonia. No. I haven't gotten direct referrals, 
although our women's veteran retreat that we are doing with 
women from the VA and L.A. are coming, and one of the social 
workers is going to come and help evaluate the program, so 
hopefully that will open the door for more.
    The information I get from a lot of our veterans is there 
are good things coming from the VA, but it is the wait and the 
travel. A majority of my gentlemen and women that are here are 
disabled, so driving there, driving long distances again.
    But I would like to share personally, my father is a Korean 
War veteran in the Navy, who is here, who has cancer, and the 
VA has been outstanding for my father. He is here today because 
of that, and he can attest to the treatment that he is 
receiving from the VA. My dad is here, so I can say personally 
that helps.
    Dr. Benishek. The VA folks in L.A. are here. They are here, 
so hopefully they will respond to this opportunity.
    Ms. Sardonia. Absolutely. Thank you.
    Dr. Benishek. Mr. McManus, anything else besides what you 
have already said?
    Mr. McManus. I just want to call attention to the fact that 
Laurie Berry, who is the administrator of the Oxnard CBOC, she 
is very responsive when we have issues. Certainly, one of the 
bigger issues is just the ID cards, and they have issues with 
the software and the camera and things of that nature, which 
has gone on month after month after month.
    So after a veteran finally is determined eligible and 
enrolled in VA health care, Sepulveda couldn't take their 
picture for an ID card, Oxnard couldn't take a picture for 
their ID card, things like that, which isn't necessarily going 
to bar them from care. However, just simple things like that, 
the frustration. You walk into the Oxnard CBOC to get your 
picture, the software is out, the camera is down. Walk into 
Sepulveda, nothing at Sepulveda.
    So they are making some strides, and I believe Sepulveda's 
cameras are back up and running, and the software and things 
like that, and supposedly the staff over at the Oxnard CBOC has 
been trained, so hopefully that has occurred.
    But I just want to call out that Laurie Berry is the 
administrator. She is very responsive when things do come up, 
and to control what she can. It is a contract clinic. So again, 
you have not only the bureaucracy of VA and that kind of thing 
but also of her ultimate boss, and the contract as well. So 
there are some interesting complications provided by that.
    But also Monica Walters, who is the social worker over 
there, she is extremely busy, very responsive, but there is 
only one of her. So if they could clone her and get maybe two 
or three, that would be wonderful.
    But there are definitely some good people doing some good 
things. The level of care that we hear for the most part coming 
from Sepulveda and West L.A., vets are very happy with that. Of 
course, there are always going to be exceptions, like with any 
health care. But overall I would say most veterans are happy 
with the level of care that they get.
    Just to echo Kim's comments, Paul Gaines, who does a lot 
of--I mean, they issue him a van and he drives all over, Kern 
County, L.A. County, Santa Barbara, to find these veterans that 
are homeless and things like that.
    So there are a lot of really good people doing some good 
things within the VA. It just seems when you look at it in 
total, the bureaucracy sometimes can even prevent some of the 
really good performers from doing the best that they could at 
their jobs, let alone a veteran looking up at this big 
bureaucracy not knowing exactly what to do.
    Dr. Benishek. Right, right. Thank you.
    Well, I will yield another 5 minutes to Ms. Brownley to see 
if she has any more questions.
    Ms. Brownley. Well, thank you. I think it is interesting to 
hear the testimony from everyone and thinking about the 
potential partnerships so that we are providing more services 
in the community, but also the outreach and what that means in 
terms of really connecting all of the services that we do have 
here.
    The military collaborative has done a great job, but just 
reflecting to think if we had a true partnership and resources 
from the VA so that we could really energize that voice and 
make it louder so that our veterans here in Ventura County 
really are aware of the services.
    And we have great safety nets, like the Veterans Court, 
which is an extraordinary thing that happens here in Ventura 
County, all done by volunteers, many of them sitting here on 
the dais, where our military folks who are suffering, who get 
into trouble, who are arrested and go to court, this court 
provides help and resources to those individuals so that they 
can provide access to help and support, as opposed to being 
locked up in jail. These are people who have served our country 
and are suffering and need our help, and it is a great safety 
net I think for the community for the most downtrodden who have 
now gotten themselves into trouble and to actually have access 
again to help.
    But if we could have a partnership there, I have seen that 
work. I have gone and watched it myself. If we had more 
resources there, there is a lot more work to be done and there 
are a lot more of our veterans who are coming through there 
that need our help and support and that level of caring that 
you talked about in terms of the way you evaluate a program. 
Having that kind of dedication and level of care is really 
critical.
    I wanted to just quickly ask about transportation because 
we are going back and forth to West L.A. Is transportation 
adequate? Is it not at the right times?
    Mr. McManus. Well, certainly there is the Disabled American 
Veterans, they provide a van. They provide some transportation 
at different pickup points throughout the county, primarily 
Ventura and Simi Valley for transportation down to Sepulveda or 
West L.A.
    There is also a bus that starts at the Santa Barbara VA 
Clinic and goes to our Oxnard CBOC and then down to Sepulveda, 
West L.A., and then reverses.
    However, if you have an appointment, you can get on the bus 
and things like that. So there is some available. However, I am 
sure there are always improvements that could be made in that 
particular process.
    Ms. Brownley. Do you think the transportation issues impede 
veterans from utilizing or going to VA care? It is, ``the bus 
is not convenient for me, I am a little embarrassed to get on 
the bus.'' Do you think that impedes access to service?
    Mr. McManus. I have heard from some vets ``I am not riding 
the bus,'' and usually it is our post-traumatic stress vets and 
things like that, where they are riding the bus with other 
veterans, but it is just not an environment that they enjoy 
because it is certainly going to go even slower than if they 
were to drive their own car down the 405. So we have heard some 
feedback as far as that goes from several different vets where 
they simply will not take it. They rely, then, on seeing Doc 
Blakus and Doc Flynn over at the Oxnard CBOC, who have done 
some very good things for our veterans. Again, you just have a 
very large pool of veterans going just to see two psych docs.
    Then they also have come to rely on either medication for 
Julie's program, Reins of H.O.P.E. and things like that, as an 
alternative to going down and riding the bus, or even just 
driving themselves down to Sepulveda. Sepulveda has the walk-in 
PTSD clinic, but a lot of vets, if you need walk-in and it is 
an urgent-type situation, it doesn't matter if there is 
transportation or not down to Sepulveda, you still have that 
timeframe to get down there where we need something more 
localized to address those urgent types of situations.
    Ms. Brownley. Yes. I can't imagine that there are a lot of 
people coming from Ventura taking a bus to go to the walk-in 
service at Sepulveda.
    And in terms of services for women specifically in Ventura 
County for mental health, I think sometimes there is a distinct 
difference between the needs of women veterans and their mental 
health care needs and men. Is there any special treatment for 
women here, or services for women?
    Ms. Hale. Julie's program at Reins of H.O.P.E. with her 
events, which is fantastic for female veterans to be able to 
come to a retreat, that center is for military sexual trauma 
for both women and men, but there are no actual specific women 
veteran programs in Ventura County that are just strictly for 
females, that I am aware of.
    Ms. Brownley. And are there any other alternative therapies 
in Ventura County? I know Reins of H.O.P.E., the answer is no. 
But are there any other alternative therapies that have any 
partnership or relationship with West L.A. or the VA?
    Mr. McManus. Not that I am aware of.
    Ms. Brownley. Thank you. I yield back.
    Dr. Benishek. All right. Thanks.
    This panel is excused. I really appreciate you all taking 
the time to be here today, and feel free to contact the 
committee about concerns that maybe we didn't address today.
    So, I thank you for your participation, and you are 
excused.
    I would ask the second panel to come up. Thank you.
    Thank you. I would like to welcome our second and the final 
panel to the witness table.
    Okay.
    Ms. Beiter, you are going to be testifying and then calling 
upon the other witnesses if you need help with questions, as I 
understand it. Is that correct?
    So thank you all for being here this morning and for the 
services you provide our veterans here in Southern California.
    Ms. Beiter, if you would like to proceed with your 
testimony, that would be great.

STATEMENTS OF DONNA M. BEITER, DIRECTOR, VA 
GREATER LOS ANGELES HEALTHCARE SYSTEM, VISN 22, VETERANS HEALTH 
ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS;

                  STATEMENT OF DONNA M. BEITER

    Ms. Beiter. Thank you. Well, good morning, Chairman 
Benishek and Ranking Member Brownley, and members of the 
committee.
    Dr. Benishek. Do you have your microphone on?
    Ms. Beiter. I thought I had it on. Okay, I will start 
again.
    Good morning, Chairman Benishek and Ranking Member 
Brownley, and members of the committee. Thank you for the 
opportunity to discuss the Greater Los Angeles Healthcare 
System, which we call GLA, our commitment and accomplishments 
in providing veterans high-quality, patient-centered care and 
being a leader in health care transformation; specifically, 
improving mental health outcomes and access to mental health 
services and programs.
    I am accompanied today by Dr. Dean Norman, our Chief of 
Staff at Greater Los Angeles; Dr. Daniel Flynn, a psychiatrist 
at our Oxnard CBOC; and Jane Twoombley, a Team Leader at the 
Ventura Vet Center. I will begin my testimony with an overview 
of the GLA health care system and then focus on our 
comprehensive mental health programs.
    GLA is accredited by the Joint Commission and is one of the 
largest and most complex facilities within VA. We serve 
Veterans throughout Kern, Los Angeles, San Luis Obispo, Santa 
Barbara, and Ventura counties.
    In Fiscal Year 2013, GLA treated over 86,000 veterans, with 
over 28,000 receiving care in our mental health programs. Since 
the beginning of Operation Enduring Freedom/Operation Iraqi 
Freedom and New Dawn, we have enrolled over 20,000 Iraq and 
Afghanistan veterans, with 9,700 of these veterans treated in 
Fiscal Year 2013. Of the Iraqi and Afghanistan veterans treated 
in Fiscal Year 2013, 30 percent received care in our mental 
health programs.
    GLA has been involved in several major redesigns of our 
health care programs over the last few years, characterized by 
completing the move to a new patient-centered primary care 
delivery model called Patient Aligned Care Teams, or PACT. This 
PACT team is comprised of a medical provider, a nurse care 
manager, and a clinical and administrative coordinator, all of 
whom care for and assist the veteran with navigating their 
whole health experience. The team focuses on engaging the 
veterans in their own care and giving them skills and goals 
they can attain to improve their health.
    As a leader in health care transformation, GLA has been 
designated a National Center of Innovation for Patient-Centered 
Care. The focus of our Center of Innovation is to develop and 
spread integrative health and healing alternative initiatives, 
such as Tai Chi, acupuncture, mindfulness-based stress 
reduction, guided imagery, and breathing/stretching/relaxation.
    Part of our plan for 2014 includes opening an integrative 
health and healing center with a specialty in pain management. 
The integrated pain management team will be interdisciplinary 
and will include tele-consultations and tele-classes in 
addition to on-site care and classes in a healing environment.
    Mental health services at GLA are unified under an 
interdisciplinary Mental Health Care Line. GLA mental health is 
expanding its implementation of the recovery model, which is 
patient-centered, empowers veterans, and works with veterans to 
attain the highest level of independent functioning possible.
    Comprehensive treatment programs for substance use 
disorders are available at our three major sites, including 
intensive outpatient programs based on the Matrix Model, a 
cognitive behaviorally-oriented approach, as well as opioid 
treatment programs, methadone maintenance or suboxone 
treatment.
    GLA offers an extensive variety of traditional and non-
traditional mental health services. Services include evidence-
based pharmacotherapy and evidence-based psychotherapy for the 
treatment of a wide range of mental disorders including post-
traumatic stress disorder, anxiety disorders, mood disorders, 
including depression and bipolar disorder and schizophrenia.
    Inpatient mental health care is provided at the West L.A. 
site, where there are currently 45 operational inpatient beds 
available to veterans who are in need of acute inpatient care 
due to the severity of their mental health condition.
    As veteran demand for outpatient mental health appointments 
has grown, GLA has strived to build capacity and keep up with 
the demand at the Oxnard Clinic. Staffing and space issues have 
posed limitations, and we have deployed a number of strategies 
to keep up with our patient needs. One of the innovations to 
increase capacity at the Oxnard Clinic is the expansion of our 
clinical video tele-mental health. This allows veterans to come 
into the clinic and see a mental health provider based at a 
distant site.
    GLA and the Oxnard CBOC make use of multiple community 
programs and resources. This includes many different faith-
based and non-profit programs. VA believes it is vitally 
important that we network with our community partners in the 
delivery of health care and other services. These community 
partners have been strong allies in our efforts, and we 
appreciate their contributions to our veterans' health and 
welfare.
    In conclusion, VHA, GLA, and the Oxnard Clinic are 
committed to providing the high-quality care that our veterans 
have earned and deserve, and we have continued to improve 
access and services to meet the mental health needs of 
veterans. We appreciate the opportunity to appear before you 
today. We would like to thank the subcommittee members for your 
interest in quality care for our veterans, and we appreciate 
the resources Congress provides VA to care for veterans.
    My colleagues and I are happy to respond to any questions 
that you may have.

    [The prepared statement of Donna M. Beiter appears in the 
Appendix]

    Dr. Benishek. Thanks for your testimony. Let me ask you a 
couple of things.
    You heard the testimony from the first panel.
    Ms. Beiter. Yes.
    Dr. Benishek. I think the gist of it was, frankly, there 
doesn't seem to be enough care locally. Nobody wants to drive 
up to VA three hours for an appointment. So it sounds like from 
your testimony that you are partnering with everybody to make 
it all work, but why aren't there more options available at 
Oxnard? Mr. McManus seemed to think that there were not enough 
people there to handle that. As I understand it, VA had some 
kind of a task force to hire, I don't know, 1,600 mental health 
professionals within the last two years, and 300 support staff 
across the country. So how many additional mental health 
providers and support staff were added in Ventura County as 
part of this effort?
    Ms. Beiter. We are planning on doubling our staff. We 
already have hired some of them.
    Dr. Benishek. Have you doubled your staff in the last two 
years?
    Ms. Beiter. In the last two years? No, we have not. Our 
plan is to have it doubled by the end of this month. So we will 
have six.
    Dr. Benishek. So how many staff have you hired in the last 
two years?
    Ms. Beiter. We have hired probably three-and-a-half FTE, 
but we have used a lot of fee-basis staff and local tenants. 
What our plan is is to have six full FTE functioning in the 
Oxnard Clinic by the end of this month.
    Dr. Benishek. How many are there now?
    Ms. Beiter. Right now there are four.
    Dr. Benishek. Four.
    Dr. Flynn, You are in Oxnard, right?
    Dr. Flynn. That is correct, Mr. Chairman.
    Dr. Benishek. Has your staff increased? Are you seeing more 
patients than you used to there, or what is the status there?
    Dr. Flynn. When I first came on in 2011, I was a fee-basis 
part-time psychiatrist. The existing psychiatrist----
    Dr. Benishek. I know the feeling.
    Dr. Flynn. I'm sorry, sir?
    Dr. Benishek. I said I know the feeling of being a part-
time fee basis provider. That is what I did.
    Dr. Flynn. I empathize with that, sir.
    Between myself and Dr. Blakus, we had a total of 0.9 
psychiatrists, and we were very, very busy during that time. 
But in the last month, another full-time equivalent has been 
brought on, Dr. Castillo, essentially doubling our capacity. 
That began last month, and I am happy to say that as of this 
week I am extending my hours from 0.4 up to approximately 0.8 
or 0.9, which will be a full-time position.
    Dr. Benishek. Do you have a hard time filling your staff? 
Have you been actively looking and you just can't find people, 
or what is exactly the problem?
    Ms. Beiter. I would say that in the last six months we have 
been recruiting to increase our staff in Oxnard. What really 
has happened to us is we have really expanded greatly with our 
patient population in Oxnard. We have had an increase in mental 
health veteran needs in Oxnard that, to be very honest, we 
really didn't anticipate. So as we have seen it grow and 
maintain that growth, we have over the last six months tried to 
put more staff in.
    The other issue we have there is space. We outgrew the 
clinic. When we projected the clinic, we did not expect, again, 
as many veterans using it as we have seen.
    Dr. Benishek. How many patients a day are going through 
that clinic for all purposes?
    Ms. Beiter. Currently we have----
    Dr. Benishek. Approximately.
    Ms. Beiter.--56,000.
    Dr. Benishek. Fifty-six patients a day?
    Ms. Beiter. Excuse me. A day? I don't know how many go 
through a day.
    Dr. Flynn, do you know?
    Dr. Flynn. I don't have that number.
    Ms. Beiter. Last fiscal year in Oxnard we enrolled--we had 
9,154.
    Dr. Benishek. It is hard for me to judge. I can judge how 
many patients come through the clinic a day because I know what 
a clinic is and I know how many patients I can see in a day. So 
I am just trying to get an idea.
    Are there any other adjunct providers besides the 
psychiatrist, Dr. Flynn, for mental health care at Oxnard?
    Dr. Flynn. We have Monica Walters, who is the social worker 
that was mentioned before, and we also have a psychologist 
currently, two psychologists now, Dr. Kay Sotto and Dr. Kaiser. 
Those are both full-time psychologists.
    Dr. Benishek. Okay.
    Ms. Beiter. One just started this month, the second 
psychologist.
    Dr. Benishek. The other question that one of the veterans I 
talked to today here mentioned was his inability to get local 
physical therapy in Ventura. He didn't like the fact that he 
needs almost daily physical therapy, and he just didn't like 
the idea of having to go to West L.A. to get that physical 
therapy. Apparently, the application that he applied for for 
the fee basis care allowed him one physical therapy visit a 
month, but he needs it three times a week or something, and he 
couldn't figure out how to get it done and who would approve 
the fee basis care.
    How soon is this PC3 thing going to happen? To me, the VA 
has been telling me that is supposed to be the answer to 
getting the community-based care started. Is that true, or is 
that ever going to happen? Can you go over that a little bit?
    Ms. Beiter. That has started to happen effective this 
January. We have been working with TriWest, which is going to 
be the vendor we work with in our area. I really believe that 
listening to the first panel and hearing that they see a need 
for having much more local care, I think PC3 is going to really 
help us do that.
    The two things that I think will help us, we are going to 
do a lot more tele-mental health so that patients don't even 
have to leave their home. We are getting ready to work with 
what is called Jabber technology, which is like Skype, for 
mental health care, where patients can be in their own home, 
our veterans, and connect to a provider.
    But PC3 is patient-centered community care. It is a new 
program for us to use.
    Dr. Benishek. I am familiar with that. I just don't like 
the fact that we are waiting for this to happen and it never 
happens. I hear from individual cases. It is very frustrating 
for me to see those individual cases and it doesn't happen, and 
I would like you to work on this fellow here. I am going to 
give Ms. Brownley his contact information, make sure this 
fellow can get his local care.
    Ms. Beiter. We would be happy to follow up on that.
    Dr. Benishek. But I think for the amount of time, I want 
Ms. Brownley to have an opportunity to speak, and hopefully we 
will have time for a few more questions.
    Ms. Brownley. Thank you, Mr. Chair.
    So just to follow up on the staffing issue that we were 
talking about, just for the record if you could provide us with 
the amount of patients that you have and roughly what is the 
daily patient rate here would be helpful to have.
    So I know back in 2012, the Office of Inspector General 
made some recommendations to the VA regarding staffing and made 
some suggestions to conduct a staffing analysis to be able to 
assess these vacancies and what is really needed in terms of 
numbers to support communities across the country, quite 
frankly.
    So I am just wondering if there have been those staffing 
analyses done for Ventura County. I think there is one thing we 
can all agree on is that we are under-staffed and we don't have 
enough professionals here in the county to meet the demand. But 
have we done any kind of analysis to know? You said you were 
going to double the staff. I wasn't quite sure when you said 
when we were going to double the staff.
    Ms. Beiter. We will be up to six full-time FTE for mental 
health care by the end of this month.
    Ms. Brownley. By the end of this month.
    Ms. Beiter. We have the last person coming on February 
24th.
    Ms. Brownley. Okay. So is that an additional four more FTEs 
that are coming on by the end of the month?
    Ms. Beiter. No. One came on in the beginning, in January, 
and we have another one coming on February 24th, and Dr. Flynn 
is increasing his hours, and that will bring us to six total 
FTE for mental health, and that is just for the mental health 
component.
    Ms. Brownley. Right, right. So have you done any sort of 
analysis to know? Is that going to be adequate, do you believe, 
for----
    Ms. Beiter. We think it is adequate for today, and we think 
that using PC3 and doing some contracts, probably by the end of 
March we will get to what we think the target should be, 
meeting the 14-day requirement for wait times. But I think that 
what we are seeing in terms of the growth pattern, we are 
probably going to continue to see this grow. So we are going to 
have to monitor this very, very closely and stay on top of it 
and probably end up having to move some more staff into this 
area.
    But the big problem I have with that is space, which is why 
we have tried to do more tele-mental health. The clinic, we 
have actually moved three people out of their offices. One 
person is working out of her car right now so that we could 
move tele-health and another mental health office in the clinic 
that we have.
    It is a contract clinic, and the contract is up for renewal 
in March. We have already started talking about it. Our plan is 
to double the size for mental health and increase some of the 
primary care side also.
    Ms. Brownley. I can assure you that there is not a space 
issue in Ventura County, that if you need additional space, we 
will find additional space for you. We have lots of resources 
here.
    Ms. Beiter. That is great.
    Ms. Brownley. And we will absolutely provide--if we need 
additional space, we will find additional space.
    On the patient-centered community care, I have a similar 
deep interest in this, as the Chair does, because it doesn't 
matter whether we are in Washington or here in Ventura County, 
the one consistent thing is veterans want services that are 
closer to home and in their community. It is a consistent cry 
for help, and I do believe that if we effectively move forward 
with this patient-centered community care that we can 
accomplish that.
    I am sure that from your vantage point, as you said, West 
L.A. is very large. You have a large area to service. It is 
very complex. Is there a particular plan specifically for 
Ventura County, as it would be for Kern County and other 
counties that you are responsible for?
    Ms. Beiter. Absolutely. We started meeting in January on 
this, and----
    Ms. Brownley. Working in West L.A.?
    Ms. Beiter. Within GLA at the executive level, talking with 
TriWest in terms of what our overall needs are. Of course, the 
areas that we are looking at, Oxnard is a very important area 
because of our wait times, which we find unacceptable, and we 
are really trying to do anything we can to get those wait times 
down.
    So what we have talked to them about is providing 
outpatient substance use disorder treatment, inpatient 
substance use disorder detox, inpatient mental health 
hospitalization, and then contracting with providers.
    I just actually heard yesterday morning that there are 15 
mental health providers already on contract with TriWest. So we 
should be able to immediately start working with those. But 
even if we don't have a contract, the way it is set up we can 
do it very quickly.
    So I feel very encouraged between getting ready to do a new 
contract for space and having this possibility, and at the same 
time we are starting the Jabber technology. We are working on 
that right now, very soon. We are estimating by the end of 
March our wait times will be down to our standard, because they 
are unacceptable at this point and I really want to admit that. 
It really is unacceptable.
    Ms. Brownley. Well, I am glad to hear that you are focused 
on that, because the wait times are way too long.
    But I would certainly like to invite you to the community 
so that there could be some collaboration in your planning and 
implementation of community care, because I think again we have 
a large military collaborative, lots and lots of providers and 
resources that I know would love to have your attention, and I 
think there could be some great collaboration and we could find 
probably some economies of scale and some efficiencies towards 
making that happen. So I would certainly like to see if we 
could begin to have that kind of conversation and implementing 
that.
    Ms. Beiter. Yes, absolutely. I totally agree with you. I 
mean, we do have some good community partnerships already going 
on in Ventura County, but clearly, listening to the first 
panel, we have a lot more that we can build on.
    Ms. Brownley. Yes, and I think that could be just the 
beginning of a longer conversation, and I think that that would 
be really terrific.
    Just in terms of the suggestions from the previous panel, 
just an intake person at the Oxnard facility, and also this 
whole issue with the new contract, the VA contract with Aurora 
Vista del Mar, which is great, but can we bring the intake here 
locally for that rather than having to travel all the way to 
West L.A.? Is that a possibility?
    Ms. Beiter. I think that we absolutely need to look into 
that as a possibility, because I think as we start working with 
these contracts we really have to make sure that we are 
coordinating what we are doing. So I am very happy to take a 
look at that and see why we couldn't do that.
    Dr. Benishek. Is there any reason why you couldn't just do 
it? I mean, apparently there was somebody at one time, and now 
they are not there. So why can't we just commit to making that 
happen?
    Ms. Beiter. We probably can just do it.
    Dr. Benishek. Can you commit to making that happen?
    Ms. Beiter. I think so. I think we can commit to that, yes.
    Dr. Benishek. Okay.
    Ms. Brownley. Thank you, Mr. Chair.
    So in terms of alternative therapies, I think our one 
witness who talked about our equine therapy here, I have been 
there, and it is really an extraordinary program. So I am 
wondering, from your vantage point, I know the VA is on a 
broader basis looking at alternative therapies. I think the 
West L.A. facility is looking at alternative therapies. How can 
we better partner with Reins of H.O.P.E. here, that is 
extraordinary, that we can have a better partnership with the 
VA?
    Ms. Beiter. Well, I think we can absolutely do that. As you 
know, we are a Center of Innovation, and we have focused on 
integrative health and healing modalities, and I am personally 
very passionate about that, being a nurse. What we are really 
trying to do as we move forward in our new programming in the 
VA is really offer our veterans choices, because certain 
therapy will work for one and not necessarily for another.
    So we are really trying to expand the choices that our 
veterans have, and we have really tried to do that at West L.A. 
for the VA, actually. We are one of their pilot sites to really 
implement a lot of those programs. And the success we have had 
and the satisfaction from our veterans is just unbelievable, 
and it makes you want to do more and more.
    We are just ruling a lot of these out now to our CBOCs. 
Part of our Oxnard issue has been space.
    Ms. Brownley. We can solve that problem.
    Ms. Beiter. But I really do believe that--actually, we had 
some plans to do some things in Oxnard in April. But listening 
again to the panel, I think there are even much more 
partnerships. And I firmly believe as we move forward in health 
care, it is really going to be about community partnerships and 
really leveraging each of our resources to the best that we 
can, for our veterans.
    So I am very supportive of that, and I think we can do lots 
of follow-up with all of the community partners.
    Ms. Brownley. Well, that would be great, and I concur with 
your statements. I think the tele-health is a good option, and 
I think it will be very, very helpful for some, not all.
    Ms. Beiter. Exactly.
    Ms. Brownley. I always stand sort of fearful that this is 
going to be the panacea and the solution that is going to fill 
in the gaps, but we have to have a variety of services to meet 
all of the individual needs and what our veterans are going to 
be most comfortable participating in.
    Ms. Beiter. I totally agree with that.
    Ms. Brownley. The Veterans Court here, I would love to 
invite you to come out and see what is happening there. It is 
extraordinarily successful. I know that there are other models 
throughout the State of California and across the country. 
Again, I think this is a great safety net that the community 
provides, and everyone who is involved, including Ms. 
Twoombley, who participates in that, volunteers their time to 
do that.
    Again, I think this is an extraordinary place for 
partnership because they are open and willing to service many, 
many more, and they work as a collaborative team. They are 
looking at the individual, trying to put the resources 
together. It is this team approach. But we could really use 
resources and help to expand upon that now. It is a completely 
voluntary effort now. It would be extremely helpful. I would 
love for you to come and see actually what takes place there.
    Where am I? Am I okay with time?
    Dr. Benishek. We are over, so don't worry about it.
    Ms. Brownley. Okay.
    Dr. Benishek. Could I ask a couple of questions?
    Ms. Brownley. Okay, you ask.
    Dr. Benishek. Ms. Beiter.
    Ms. Beiter. Yes?
    Dr. Benishek. You mentioned that you are going to meet this 
14-day goal at the end of March. What is happening now?
    Ms. Beiter. With the new providers that we have just hired, 
we will be able to fill up their panels, and we are also going 
to be looking at some PC3 providers. But we think with the 
staff that has come on board--and maybe Dr. Flynn can even 
address that--we feel we will be able to get very close, if not 
right on there, and we are going to continue to look at that 
and monitor it, because our goal is to get within our VA 
standard by the end of March.
    Dr. Benishek. Well, maybe at the end of March you can 
update the committee on where you are at. That would be 
appreciated.
    Ms. Beiter. We can do that.
    Dr. Benishek. Okay?
    Ms. Beiter. Okay.
    Dr. Benishek. I have a question for Ms. Twoombley is it?
    Ms. Twoombley. Twoombley.
    Dr. Benishek. Twoombley. You work at the Vet Center, then?
    Ms. Twoombley. Yes, Chairman.
    Dr. Benishek. What is your staffing situation?
    Ms. Twoombley. We have four full-time counselors, a full-
time outreach worker, one part-time outreach worker, and an 
office manager.
    Dr. Benishek. I mean, how are your wait times? Do you need 
more staff? What is the situation?
    Ms. Twoombley. We are actually adding one more staff member 
within the next probably three months. The wait time for--we 
are very fortunate. The wait time for our clients right now is 
three to five days for intake.
    Dr. Benishek. Okay. Well, got to go to a couple of vet 
centers in my district, and it is a little bit different from 
the VA hospitals. It is a separate thing, and I know it was 
managed by VA. I was so pleased by the atmosphere there. There 
were guys that had actually been through the problems helping 
other veterans.
    Ms. Twoombley. Yes, sir.
    Dr. Benishek. That, to me, is a really great----
    Ms. Twoombley. It is the same here.
    Dr. Benishek. Yes, it is a really great setting, I think. 
So I just want to be sure that you feel as if you are getting 
enough. I think your funding is different----
    Ms. Twoombley. We are part of the VA. Our funding is a 
little bit different. Right now, our staff is--again, we are 
increasing. We have plans to increase our space in Fiscal Year 
2014 or 2015, and we will be able to offer Tai Chi, yoga, and 
things like that within probably, hopefully a year, a year-and-
a-half, which would be more alternative things for our center. 
We offer a variety of groups----
    Dr. Benishek. What would it take for you to incorporate 
something like equine therapy? Who approves that kind of stuff? 
I am not familiar with it myself, but how is that application 
so you can actually refer somebody to them?
    Ms. Twoombley. Well, that is a great question, Mr. 
Chairman. We actually refer to Reins of H.O.P.E. currently, and 
we refer to Operation Healing Waters, which is a similar group. 
It is a fly-fishing group. So we do refer to those kinds of 
alternatives.
    Dr. Benishek. Okay. All right. Thanks.
    I am going to yield back to Ms. Brownley for any final 
questions she may have.
    Ms. Brownley. Well, I just wanted to follow up on one line 
of questioning, too. If you would just comment a little bit on 
what your outreach looks like for your facility.
    Ms. Twoombley. Okay. Our full-time outreach worker actually 
is here. I just want to point him out. He is an Iraqi vet, and 
he goes to a variety of outreach events. He partners with the 
community colleges, with the universities. He partners with the 
Navy base, with the wing. He attends events at--help me out 
here, Isaac.
    Ms. Brownley. Whenever I am out, I see him.
    Ms. Twoombley. Yes, he is at all events. So he is out there 
trying to get the word out that we do provide services for 
combat veterans and for veterans who have experienced military 
sexual trauma, that we provide post-traumatic stress groups, 
all kinds of different help for them at the Vet Center.
    Thank you for acknowledging him.
    Ms. Brownley. Very good.
    Well, I think most of my questions have been answered, and 
I am very excited about the prospect of having had this meeting 
as a starting point of a conversation and continuing that in 
terms of how we can better partner here with all of the 
resources that we do indeed have here, and the partnerships I 
think that can be developed with the VA, and the partnership on 
outreach and addressing some of the very specific issues that 
were raised here today in terms of intake at the Oxnard 
facility, the Aurora Vista del Mar issue, and seeing the plan. 
You had mentioned that there is a specific plan for the area. 
If you could share the plan with me, I would appreciate that.
    I would just like to begin the work and scheduling some 
time where we can continue this meeting and have our community 
providers here, and we can further the conversation and I think 
create some better partnerships here and service our veterans 
in a better way, and that is why we are all here.
    I certainly do thank the VA for their work and help. 
Sometimes it might sound like we are being overly critical. We 
don't mean to, because we know that you are equally as 
committed to servicing our vets, and I think the collaboration 
is really the key to our future success, and we all want to 
continually improve until we know that we are servicing our 
veterans in the very best way possible.
    Do you have concluding----
    Dr. Benishek. I have a few things to say.
    Ms. Brownley. Okay. Great. Thank you, Mr. Chair.
    Dr. Benishek. I think that is the last of the questions. 
The panel is excused.
    Thank you to all our witnesses and to the audience members 
for joining today's conversation. It has been a pleasure for me 
to spend the morning here in Southern California with you all.
    I hope that the VA staff here today will listen to the 
comments of the first panel and incorporate a lot of their 
ideas going forward. We have a few inquiries we will expect 
some answers to in the future.
    With that, I ask unanimous consent that all members have 5 
legislative days to revise and extend their remarks and to 
include extraneous material.
    Without objection, so ordered.
    Dr. Benishek. This hearing is now adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]
                                APPENDIX

  Prepared Statement of Kimberly Evans Logie, LMFT and Military Spouse

    I am Kim Evans Logie, Military Spouse and licensed Marriage 
and Family Therapist. My husband has served 24 years in the 
military, been to multiple combat deployments as an active duty 
and reservist. We recently spent almost two years getting his 
rating and enrolled with VA. I am one of the leading mental 
health experts in the state of CA in regards to Military and 
Veteran mental health. I have trained over 1300 CA mental 
health professionals on military mental health issues and have 
briefed over 8000 service members and their loved ones on pre 
and post deployment issues.
    I have worked extensively with Active Duty, National Guard 
and Reserve components as a TriWest embedded therapist, Joint 
Family Support Assistant Program (JFSAP) Military Family Life 
Consultant (MFLC), Director of Psychological Health (DPH) for 
the Air National Guard and Purple Camp Therapist to name a few. 
Last year I spent 4 weeks at Lackland Air Force Base under 
federal subpoena as a defense witness FORCED to testify against 
one of my Airmen who had been sexually assaulted. I am 
currently the Coordinator for the Ventura County Superior Court 
Veterans Treatment Court and the Director of Ventura County 
Military Collaborative. I have had the distinct pleasure of 
serving the men and women of the US military both pre and post 
deployment and know well the mental health issues associated 
with combat service and military sexual trauma.
    In Ventura County we use a combination of inpatient, 
outpatient, alternative treatments and homegrown community 
based support to help our veterans.

    For outpatient clinics and services we utilize:
        <bullet> The Ventura Vet Center for combat, substance abuse and 
        MST veterans
        <bullet> The VA contracted clinic in Oxnard for psychiatric and 
        mental health treatment
        <bullet> The VA at Sepulveda
        <bullet> The Vet Center at Sepulveda VA

    For inpatient services we utilize:

        <bullet> The Domiciliary, Haven, New Directions etc. at West LA 
        VA
        <bullet> The Pathway Home at Yountville: a privately funded 
        facility, which does phenomenal work and is free for veterans.
        <bullet> We do have a PTSD unit at a local psychiatric 
        hospital. Aurora Vista Del Mar just received a VA contract but 
        we are being told that intake and referral will have to come 
        through West LA VA. This may make the use of our local facility 
        prohibitive. Most of our veterans would not be able to drive to 
        LA for intake, due to transportation and/or medical issues.

    The alternative forms of treatment in our local area are:

        <bullet> The Soldiers Project which provides free military 
        mental health
        <bullet> Reins of Hope a leader in equine assisted therapy
        <bullet> Healing in America using energy healing to help 
        veterans
        <bullet> Crisis Intervention Team (CIT) training for our local 
        law enforcement officers in dealing with military and veteran 
        issues.
        <bullet> Ventura County Military Collaborative which has over 
        140 agencies (government, non-profit and VA contracted) working 
        together to create a safety net of care for military, veterans 
        and their families through a variety of modalities.
        <bullet> Ventura County Veterans Treatment Court providing wrap 
        around services and treatment vs incarceration and is making 
        profound strides in helping veterans by utilizing local 
        agencies through the Collaborative.

    These services are funded primarily through grants. The 
Ventura County Military Collaborative operates without any 
funding at all relying on volunteers, donated meeting space and 
a community that doesn't hesitate to support it. In addition, 
the Collaborative produces the MilVet Expo, a free yearly event 
focused on bringing services to active duty, national guard, 
reservists, veterans, retirees and their loved ones. This event 
is produced with zero dollars and the gracious support of 
community partners.

    The role traditional and alternative forms of therapy play 
in veterans recovery process:

    Without proper and coordinated mental health care I have no 
doubt that the men and women who serve our great nation would 
end up in situations much worse than we are currently seeing. 
Our service members and their families are tired, they are 
scared and they are proud. Consistency, training and knowledge 
of community resources are imperative for all clinicians 
working with veterans. Consistency is essential to building 
trust, which is a hallmark of successful mental health 
treatment. This is the bare minimum needed to aid those men and 
women who have given so much.

    I would like to point out that the VA is doing some great things:
        <bullet> We have Paul Gaines, our local homeless outreach 
        representative, who I believe never sleeps. He is everywhere in 
        Ventura county interfacing with many community agencies and law 
        enforcement to help find veterans in need of shelter and mental 
        health/substance abuse treatment. He takes these veterans to 
        West LA VA for inpatient services.
        <bullet> Greg Cain is our Jail Outreach Coordinator and a key 
        player at the Ventura County Veterans Treatment Court. He works 
        24/7 to get our local Vets into beds at West LA VA. He speaks 
        with family members, public defenders, district attorneys and 
        anyone else who will listen about the wide array of services 
        for veterans.
        <bullet> Charles Green is the face of VA for many of our 
        National Guard and Reservists. He arranges clinics and 
        briefings to help enroll our local service members and answer 
        their questions while they are still in the military.
    The obstacles we face:

        <bullet> Lengthy waits at our local clinic for psychiatric and 
        mental health services. I had to refer an Airman back to San 
        Francisco VA for a medication refill as the wait was over 4 
        months to see a Psychiatrist at the Oxnard clinic.
        <bullet> No outreach from our local VA clinic. All outreach and 
        support comes from West LA VA.
        <bullet> Veterans completing an inpatient program at West LA VA 
        with no apparent coordination of care for their return to 
        Ventura County.
        <bullet> The need for more localized services through grant 
        funding and/or support from the VA.
        <bullet> Creating a sense of community with our local vets when 
        their treatment may involve multiple facilities at multiple 
        locations.

    Having been involved with military mental health since 2003 
I am so impressed with what we have accomplished. The stigma 
that was so prevalent when I first started has disappeared in 
most units, especially those who have embraced an embedded 
therapist model. I am proud of the work that we have done and 
it has made a difference! We are saving lives.
    I thank you for your time and for your caring about those 
who have given so much.

                   Prepared Statement of Lyndsey Hale

    Our Greatest Generation Veterans--Health/Psyche/Social 
Needs

    Good day, my name is Lyndsey Hale, I am a Military Spouse, 
the 2nd Vice for the American Legion Auxiliary unit 741, a 
Ventura County Military Collaborative Board Member, and a 
Veterans Liaison for a hospice provider.
    Regarding mental health and resources for our veterans it 
is especially meaningful for those veterans who left comrades 
on the field of battle as they enter their senior years or near 
end of life.
    There is a quote from Will Rogers that goes, ``We can't all 
be heroes, some of us have to sit on the curb and clap as they 
go by.'' Although in more recent years we do our share of 
``clapping'', recognizing and honoring our veteran, we need to 
do more to provide the resources and support for our veterans 
in regards to mental and spiritual health particularly as they 
near end of life.
    I know that we do not see ourselves as a ``warrior'' 
nation. However, over the years we have been thrust into 
numerous conflicts during which we have always had those 
willing to answer the call of their country. Many of those 
never returned alive.
    There are over 21 millions living Veterans, 45% of which 
are over 65 years old according to www.census.gov.
    As a Military Spouse, daughter of a Vietnam era veteran, 
and granddaughter of WWII veterans, I am humbled to be able to 
speak in regards to the need for resources and support for our 
veterans of any age, and particularly to advocate today for our 
elderly veterans. In the American Legion Auxiliary outreach and 
in working in hospice I hear many stories from veterans that 
they have never told or not brought up in years. These veterans 
of war are holding memories of horrors one, like myself, who 
has not seen battle, can comprehend.
    I was speaking to a WWII veteran, a Pearl Harbor Survivor, 
who told me he had three times been spared his life during WWII 
while he watched his comrades in arms die. While he had to pick 
up their remains and count the bodies . . . He told me that the 
third time his life was spared he was on a ship at sea and had 
just left his post to run back to the galley for coffee . . . 
while he was in the galley the ship was attacked. Later as he 
was walking the ship with a Lieutenant, and pulling dog tags of 
those that had been killed he came to his post where he should 
have been, and there in his place was the lower half of a mans 
body . . . the man covering his seat was litterly cut in half 
by the explosion from the torpedo that hit the ship. He said he 
started laughing hysterically at this point as he just lost it. 
His Lieutenant then slapped him in the face to bring him back 
to reality . . . This WWII hero told me he would never forget 
those images and that now as he is in his late 90's they come 
to him more and more.
    This is just one of many stories I have heard. Other 
stories involve questions and remorse for those they may have 
killed in battle . . . These WWII veterans wonder what will 
come of their souls as they leave this life. I believe our 
veterans often just need to get these stories off their chests 
. . . things they have never spoken of to anyone for fear of 
the judgment that would follow. I can't tell you how many times 
I have heard a spouse say, yes he served in the War, but he 
never talks about it. PTSD is a common term these days that we 
are trying hard to address and assist our returning troops 
with. I personally have had many a friend come home in recent 
years broken from war. We need to continue to support and grow 
our resources for our military and veterans of recent war. In 
saying that, we can not forget the veterans of our past wars 
such as our WWII vets. They came home to a nation as heroes, 
yes, but there was no diagnosis for their mental well being, 
there was no `PTSD' support . . . often they just stifled it, 
at times self medicated and moved on. The bonus for this WWII 
and Korean Conflict generation was that many of our men and 
families were touched by it or involved directly in it and so 
they had comfort in numbers. However, as this tough proud 
generation ages they have questions and fears they have never 
been able to address.
    As an American Legion Auxiliary Member I know that our 
American Legionnaires & Auxiliary members are constantly 
seeking better ways to reach out to our Veterans and get them 
information on programs such as the We Honor Veterans Program, 
the `Spirit of '45, movement, resources such as the local 
VetCenter and County Veterans Service Office to help bring 
support to our greatest generation, but we need more awareness 
and support in our health care community and the general 
public. I ask you today to help find a way to reach out to our 
Greatest Generation veterans and let them know there are 
support and resources for them too and that it is okay to talk 
about their time in the service.
    Thank you for your time and attention to these matters and 
your work on making a difference in the lives of our Veterans 
and families.
    Lyndsey N. Hale

                                 <F-dash>

                  Prepared Statement of Julie Sardonia

    Chairman Benishek, Ranking Member Brownley, and 
Distinguished Members of the Subcommittee:
    On behalf of Reins of H.O.P.E.(Human Opportunity Partnering 
with Equines) as its Founder and Executive Director, I offer 
gratitude for the chance to share information on our Equine 
Assisted Psychotherapy Program, H.O.P.E. for Warriors, serving 
our active duty service members, veterans, reservists and their 
families.
    Reins of H.O.P.E. was established in 2006 as a non-profit 
serving Ventura County's at risk youth population. Our tool: 
Equine Assisted Psychotherapy and Learning sessions (EAP). Our 
client roster has grown steadily each year since, as has the 
number of sessions offered.
    All of our Licensed Mental Health Therapists and Equine 
Specialists are trained and certified by EAGLALA, Equine 
Assisted Growth and Learning Association. As the world's 
largest and most professionally respected association for this 
kind of psychotherapy, EAGLALA sets the global standard for 
care. It has more than 4,000 members in 49 countries and has 
certified the staff of over 600 treatment programs. They have 
established The EAGLALA Military Services Designation, which 
ensures that practitioners complete specialized training in 
order to have cultural fluency in the military community. 
Though equine assisted psychotherapy is a relatively new 
discipline, EAGLALA is committed to building a body of 
evidence-based, peer reviewed research. For a listing of 
research and studies please visit: www.EAGLALA.org/research.
    The EAGLALA model, [Ret] Col. Jimmy L. Walters affirmed, 
``uses the horse to gain insight into behaviors and 
perceptions. The horses' reactions provide unbiased, real time 
feedback, breaking through the barriers that many military 
members experience in conversations with others who cannot 
begin to understand what we feel . . . Equine assisted 
psychotherapy provides a strategy for dealing with trauma in a 
way that makes sense to military service members.''
    In January 2011, Reins of H.O.P.E. launched the H.O.P.E. 
for Warriors Program to provide active duty service members, 
veterans, reservists, and their families with no cost, 
unlimited, confidential EAP sessions to fill the increasing 
need for vital, readily accessible mental health services. We 
offer individual, groups, families, couples, overnight retreats 
and team building sessions. This popular program accounts for 
80% of our non-profit clinical hours and continues to grow.
    Reins of H.O.P.E. sessions take place on the ground in 
outdoor settings. No riding is involved. Sessions with the 
horses allow exploration of thoughts, feelings, and behaviors 
and foster trust, resilience, adaptability. These inevitably 
lead to better problem solving, improved communication, and 
healthier relationships. Many clients have told us that our 
arena and horses have created the only space where they feel 
safe to talk about their military experiences and issues. These 
clients connect naturally with horses since, like us, horses 
are herd animals whose survival depends on constant 
communication. Yet unlike humans, horses, as prey animals, must 
stay constantly vigilant. Extraordinarily sensitive to their 
surroundings, they can sense emotional energy around them and 
often mirror it. They are therefore catalysts for insights on 
patterns of thought and behavior. They also offer clients the 
experience of a new way of being. Powerful yet gentle, these 
animals are effective ambassadors of nature as well as apt 
teachers in awareness--that is, being in the present moment, 
calming oneself quickly, setting appropriate boundaries and 
learning to trust--coping skills key to healing and living a 
healthy lifestyle.
    The H.O.P.E. for Warriors Program takes head-on issues of 
transition, reintegration, depression, PTSD, suicide, MST, 
substance abuse, anger, grief and loss.
    At Reins of H.O.P.E., our goal is to increase the awareness 
of Alternative Treatment Modalities, such as Equine Assisted 
Psychotherapy in the mental health community. But we need the 
recognition from the VA that alternative therapies are 
effective and an appropriate level of care for our veterans. In 
order to reach and help heal our increasing veteran population 
we pride ourselves in our collaborative and adjunctive form of 
therapy that we provide with our referral base organizations 
such as, Fleet and Family Services from US Navy base Ventura 
County, Aurora Vista del Mar Hospital Military Program, Ventura 
Vet Center, FOCUS, Oxnard Family Circle Veterans Program and 
SART.
    Since 2011, the H.O.P.E. for Warriors Program has conducted 
over 684 clinical hours and serviced over 530 equine sessions 
at no cost, funded solely by our broad-based community donors, 
foundations and grants. It is our intention and mission never 
to turn away a veteran in need of mental health services. We 
seek a collaborative relationship with the VA and their mental 
health providers to fulfill our mission: to provide our 
veterans with a vital program.

    A few of our clients' voices join mine:

    Josette Wingo, WWII Navy Wave: ``Equine Therapy at Reins of 
H.O.P.E. is a warm, validation program which can have an almost 
instantaneous effect on returning veterans who might be dealing 
with PTSD or . . . other trauma. These difficulties often 
impede readjusting and [a] return to their best lives. In the 
short time I have been participating, I realize how being with 
the gentle, intuitive horses and their calming effects can have 
life changing possibilities.''

    Retired Col. George Compton, US Army (Advisory Board 
Member): ``I am an absolute believer in the H.O.P.E. for 
Warriors Program. Without this program we'd have more veterans 
in jail and in trouble.''

    David Parker, Retired Master Sergeant E-8 US Army: ``This 
program has been a positive influence in my life. I have 
learned healthy coping skills to finally deal with my anger 
management issues. It has changed my life for the better.''

    Larry, Vietnam veteran: ``I don't associate very well with 
other people and when we go out to the horse program it allows 
me to relax enough to be able to communicate with people 
freely. I feel like I am worth something instead of a piece of 
trash. I am very impressed with their program and would like to 
see it expand more to help other vets. They really care.''

    Rebecca, US Army Bronze Star Iraq Veteran: ``Participating 
in the INNPower Retreat for women veterans I found friendship 
and a safe place to fall when it's really needed, which I have 
not found since I left active duty. A lot of women soldiers 
feel forgotten.''

    Sarah Hedge, Active duty Seabee, 2nd class petty officer: 
``I attribute my healing process of PTSD to the relationship 
with the horses and the specific activities which helped me 
gain my life back. I am off all antidepressants, sleeping meds 
and alcohol . . . I am happy.''

    Sir Winston Churchill once said, ``There is something about 
the outside of a horse that is good for the inside of a man.''
    Thank you for the opportunity to present our Reins of 
H.O.P.E. Program. It is our honor to serve and give back to our 
service members, veterans and their families who have fought 
for our Nation's freedom. I invite you to come up to Ojai as 
did Congresswoman Brownley to experience firsthand how our 
horses are healing heroes with honor.
    Respectfully Submitted,

    Julie Sardonia, M.A., LMFT,
    Founder/Executive Director

 Prepared Statement of Mike McManus, Veterans Service Officer, Ventura 
                      County Human Services Agency

    Good morning, Chairman Benishek, Ranking Member Brownley, 
and Members of the Committee. Thank you for the opportunity to 
provide information to the Committee regarding mental health 
care services to Southern California veterans through the 
Greater Los Angeles Department of Veterans Affairs (VA) 
Healthcare System.
    My name is Mike McManus and I am the County of Ventura, 
Veteran Services Officer. My staff and I connect fellow 
veterans, their dependents, and survivors with federal and 
state veterans' benefits and local resources. One of our 
primary responsibilities is connecting veterans with VA 
disability compensation for such conditions as Post Traumatic 
Stress, Traumatic Brain Injury (TBI), and for conditions 
resulting from Military Sexual Trauma. We also assist veterans 
enroll in VA health care and refer to local and regional 
treatment resources.
    The Veteran Services Office has five accredited personnel 
who interview veterans, file the appropriate benefit claim, 
advocate on behalf of the veteran, and make needed referrals to 
other service providers. We also have support staff to include 
interns that enable us to meet client needs. The Veteran 
Services office has conducted a variety of outreach activities 
to inform the veteran community about benefits. The office 
currently operates out of the main office and nine field 
offices to make it as convenient as possible for veterans to 
meet us. In Fiscal Year 11/12 the office saw 1,839 people, 
however, by Fiscal Year 12/13 office staff had seen 3,572 
people (source: VetPro). In FY 10/11 the Veteran Services 
Office connected county veterans with 3.89 million dollars in 
federal benefit payments, but by FY 12/13, those benefit 
payments totaled over 8.75 million dollars (source: California 
Department of Veterans Affairs Annual Report to the 
Legislature).
    I am also a retired Unites States Air Force Senior Master 
Sergeant. I spent the last seven years of my 20 years in the 
military as a First Sergeant with one deployment for Operation 
Iraqi Freedom in 2003. As a First Sergeant I had overall 
supervision over all enlisted personnel with my units. I 
advised the unit commanders on all matters affecting their 
enlisted force to include issues involving mental health and 
substance abuse, and those conditions, impact on service 
members, their families, their career, and the unit.
    Ventura County veterans needing mental health care can 
receive treatment from the two psychiatrists and one social 
worker at the Oxnard Community Based Outpatient Clinic (VA 
clinic). Veterans can also seek counseling from the four 
clinicians at the Ventura Vet Center.
    Ventura County has over 41,000 veterans, thousands more 
National Guard, Air National Guard, and Navy and Marine Reserve 
personnel who are eligible for VA mental health care. Navy Base 
Ventura County's active duty Navy personnel, who are combat 
veterans, can also receive mental health care from the Vet 
Center.
    In essence you have tens of thousands of veterans and 
military personnel in Ventura County and many of these will 
seek mental health care from the seven people providing mental 
health treatment for the VA.
    Clearly there is a large unmet need. The VA clinicians 
providing mental health care in Ventura County do an 
extraordinary job, there are simply too few of them. As 
outreach to the military/veteran community increases from 
organizations such as the Ventura County Veteran Services 
Office and the Ventura County Military Collaborative, the 
number of veterans seeking services increases.
    Veterans routinely tell my staff and I, how they can only 
see the psychiatrists at Oxnard VA clinic every other month or 
in some cases every three months. The option to be seen by a 
clinician at Sepulveda exists, however, in many cases we are 
referring to combat veterans with Post Traumatic Stress and 
driving the I-405 only adds to their stress and anxiety. 
Ventura Vet Center staff has done an amazing job trying to meet 
the mental health needs of our veterans. However, they are only 
four clinicians. I whole-heartedly encourage the VA to add 
clinicians to the Oxnard VA clinic and Ventura Vet Center. The 
additional clinicians could then provide treatment during 
evening hours and on weekends. This will improve access to care 
for veterans going to college, recovering from service-
connected injuries, who are employed, etc.
    In addition to increasing the number of clinicians at the 
Oxnard VA clinic and Ventura Vet Center, the VA needs to 
explore partnerships with community programs, resources, and 
more quickly assess and adopt alternative mental health 
treatments. I would suggest the VA establish contracts with 
mental health and substance abuse counselors for inpatient and 
outpatient treatment in Ventura County. An example of such 
cooperation is the newly awarded VA contract to Aurora Vista 
Del Mar to provide treatment for Post Traumatic Stress. 
Previously, they treated veterans eligible for Tricare. The VA 
contract will now enable a much larger pool of county veterans 
to benefit from their services.
    In-patient and intensive out-patient resources availability 
in Ventura County will greatly benefit the county's veterans. 
Programs such as what Aurora Vista Del Mar offers would allow 
veterans to remain in Ventura County nearer their support 
structures and enable some to continue their employment while 
receiving out-patient care. This option would not be 
appropriate for all veterans and some would receive treatment 
through one of the programs at the VA Medical Center (VAMC) in 
Los Angeles. In many instances however, treatment provided in-
county is the option best suited to the veteran. One example of 
how the option of in-county treatment could benefit veterans is 
through the Ventura County Superior Court's Veteran Court. Vet 
Court focuses on treatment, not incarceration, of our combat 
veterans with service caused Post Traumatic Stress, Traumatic 
Brain Injury and the resulting behavior problems, substance 
abuse issues and run-ins with law enforcement. Currently, most 
veterans in Vet Court needing in-patient or intensive out-
patient treatment go to the VA Medical Center in Los Angeles. 
Ventura County veterans deserve the option to receive in-
patient and intensive out-patient treatment in their home 
county. We have high hopes for the Aurora Vista Del Mar program 
offering these options.
    Partnering with other non-VA service providers to expand 
the availability of treatment would greatly benefit our 
veterans. We are fortunate in Ventura County to have an equine 
therapy program (Reins of H.O.P.E. in Ojai, CA) that has proven 
itself invaluable to our combat veterans and others who have 
experienced military-related trauma. A VA contract or the 
possibility of a quick Fee Basis referral would greatly help 
meet the need for mental health treatment.
    VA's willingness to assess and accept alternative 
treatments is what's called for to help meet the need for care. 
A couple of examples in Ventura County are meditation therapy 
and farming. Healing in America (Ojai, CA) offers its 
meditation services as a way for veterans to heal. In addition, 
Veteran Farmers of America (Ventura, CA) is developing a 
program and has experienced promising early results that have 
shown the benefits of their farming intern program.
    The VA should actively solicit data on the effectiveness of 
complimentary and alternative therapies so they can provide 
access (contract, Fee Basis referral, etc) for veterans needing 
mental health care. Alternative therapies in conjunction with 
VA provided care need to work in concert with one another to 
meet veterans' needs. Our veterans have earned such care.
    Thank you again for this opportunity.
    Points of contact from organizations reference above:
    Aurora Vista Del Mar, Dr. Pilar Sumalpong, Ph.D., 805-653-
6434 ext. 205, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="14447d7875663a4761797578647b7a73547561667b667576717c75627d7b6675783a777b79">[email&#160;protected]</a>
    Reins of H.O.P.E, Julie Sardinia, 805-797-5539, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="addfc8c4c3dec2cbc583c283dd83c883c2c7ccc4edcac0ccc4c183cec2c0">[email&#160;protected]</a>
    Healing in America, Roger Ford, 805-640-0211, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0b2afa7a5b2a6afb2a480a8a5a1aca9aea7a9aea1ada5b2a9a3a1eea3afad">[email&#160;protected]</a>
    Veteran Farmers, Mary Maranville, 805-746-0606, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93fef2e1ead3e0f6f6f2f4bdfce1f4">[email&#160;protected]</a>

                                 <F-dash>

   Prepared Statement of Donna Beiter, Director, Greater Los Angeles 
                           Healthcare System

    Good morning, Chairman Benishek, Ranking Member Brownley, 
and members of the Committee. Thank you for the opportunity to 
discuss the VA Greater Los Angeles Healthcare System's (GLA) 
commitment and accomplishments in providing Veterans high 
quality, patient-centered care and being a leader in health 
care transformation; specifically, by improving mental health 
outcomes and access to mental health services and programs. I 
will begin my testimony with an overview of GLA and then focus 
on our comprehensive mental health programs.

Greater Los Angeles Healthcare System Overview

    GLA is accredited by The Joint Commission and is one of the 
largest and most complex facilities within VA. We serve 
Veterans throughout Kern, Los Angeles, San Luis Obispo, Santa 
Barbara, and Ventura counties. GLA is located in West Los 
Angeles, California with large ambulatory care centers in 
downtown Los Angeles and Sepulveda; Community-Based Outpatient 
Clinics (CBOC) located in Bakersfield, Gardena, East Los 
Angeles, Lancaster, Oxnard, Santa Maria, Santa Barbara, and San 
Luis Obispo; and a clinic in development in the San Gabriel 
Valley. In fiscal year (FY) 2013, GLA treated 86,438 Veterans 
with 28,070 receiving care in our mental health programs. Since 
the beginning of Operation Enduring Freedom/Operation Iraqi 
Freedom/Operation New Dawn (OEF/OIF/OND), GLA has enrolled 
20,696 Iraq and Afghanistan Veterans, with over 9,700 Veterans 
treated in FY 2013. Of the Iraq and Afghanistan Veterans 
treated in FY 2013, 30 percent received care in our mental 
health programs.
    GLA has been involved in several major redesigns of our 
health care programs over the last few years, particularly by 
completing the move to a new patient-centered primary care 
delivery model called Patient Aligned Care Teams (PACT). A PACT 
team is comprised of a medical provider, nurse care manager, 
and a clinical and administrative coordinator, all of whom care 
for and assist the Veteran with navigating his or her whole 
health experience. The team focuses on engaging Veterans in 
their own care by helping Veterans identify and set goals, and 
by teaching them skills they can use to improve their health. 
The PACT team works together to ensure access and communication 
with the Veteran and coordination with the rest of the health 
care organization and the Veteran's local community. Along with 
and consistent with the overall PACT model, primary care-mental 
health integration has been an integral part of primary care at 
GLA with mental health providers embedded in primary care 
settings. Additionally, GLA has implemented both general tele-
health and also tele-mental health services to Veterans in our 
catchments area.
    As a leader in health care transformation, GLA has been 
designated a National Center of Innovation for Patient-Centered 
Care. The focus of our Center of Innovation is to develop and 
spread integrative health and healing alternative initiatives, 
such as Tai Chi, acupuncture, mindfulness-based stress 
reduction, guided imagery, and breathing/stretching/relaxation 
exercises. Our plan is to continue to expand these initiatives 
as a standard part of care for all Veterans at all GLA sites 
utilizing tele-technology, Web based platforms, and train-the-
trainer approaches. Our plan is that these alternative care 
therapies will be available at the Oxnard, Santa Maria, and 
Bakersfield clinics by April 2014.
    GLA has implemented new innovative strategies in the area 
of eliminating Veterans' homelessness. GLA collaborates with 
numerous community partners to end homelessness among Veterans, 
such as Los Angeles City, Los Angeles County, the Department of 
Housing and Urban Development (HUD), Public Housing Authority, 
and many other community partners. A 28 percent reduction in 
Veterans' homelessness in LA City and LA County between 2010 
and 2012 was achieved through these successful community 
partnerships. We continue to target the most chronically 
homeless Veterans with a focus on getting the most vulnerable 
Veterans off the streets and into permanent housing using a 
Housing First approach.

Mental Health Care

    Mental health services at GLA are unified under an 
interdisciplinary Mental Health Care Line (MHCL). GLA's MHCL is 
expanding its implementation of the Recovery Model which is 
patient-centered, empowers Veterans, and works with Veterans to 
attain the highest level of independent functioning possible 
for each Veteran. GLA provides an extensive range of mental 
health outpatient services at three major sites (West Los 
Angeles, Los Angeles Ambulatory Care Center, and Sepulveda 
Ambulatory Care Center) as well as the eight CBOCs.
    Comprehensive treatment programs for substance use 
disorders are available at the three major sites, including 
intensive outpatient programs based on the Matrix Model (a 
cognitive behaviorally-oriented approach) as well as Opiate 
Treatment Programs (methadone maintenance or Suboxone 
treatment). The Harm-Reduction Model is also utilized at the 
three main campuses. Alcohol detoxification is available for 
homeless Veterans at the West Los Angeles campus. Negotiations 
are in the final stages to make inpatient detoxification 
services available to all Veterans (including non-homeless 
Veterans and Veterans withdrawing from drugs other than 
alcohol) at a community-based facility in the GLA basin through 
the TriWest contract program as part of VA's Patient-Centered 
Community Care (PC3) initiative. GLA is also in the process of 
developing a partnership with Kern County Mental Health to 
provide inpatient detoxification for Veterans who are enrolled 
in the Bakersfield Clinic. GLA will be making substance use 
disorder treatment, inpatient mental health treatment, and 
specialized outpatient mental health treatment available to 
Veterans at northern CBOCs through the PC3 program, and 
contracts are being negotiated with TriWest. This will help 
Veterans who live at a distance from the three major campuses 
obtain these services closer to their homes.
    In addition to comprehensive substance use disorder 
treatment, GLA offers an extensive array of traditional and 
non-traditional mental health services. Services include 
evidence-based pharmacotherapy and evidence-based psychotherapy 
for the treatment of a very wide range of mental disorders 
including post-traumatic stress disorder, anxiety disorders, 
mood disorders (including depression and bipolar disorder) and 
schizophrenia. Among the evidence-based psychotherapies that 
are available are cognitive behavior therapy for depression, 
acceptance and commitment therapy for depression, cognitive-
behavior therapy for insomnia, prolonged exposure therapy and 
cognitive processing therapy for post-traumatic stress 
disorder, and social skills training for patients with serious 
mental illness, such as schizophrenia. GLA mental health staff 
have been trained in a number of other evidence-based 
psychotherapies as well, integrated behavioral couples therapy, 
motivational interviewing and enhancement, and problem-solving 
therapy consistent with VA's evidence-based therapy initiative. 
In addition, as described earlier, complementary and 
alternative medical practices such as mindfulness-based stress 
reduction are incorporated into many mental health clinics and 
programs.
    Primary Care-Mental Health Integration (PC-MHI) has been 
available to Veterans at the West Los Angeles Medical Center 
since its inception in 2007 and at the Sepulveda Ambulatory 
Care Center, where the emphasis is on giving patients same-day 
access when needed and close collaboration with primary care 
providers to promote both mental health and medically-healthy 
behaviors. PC-MHI has recently become available at the Los 
Angeles Ambulatory Care Center campus and is in the process of 
being implemented at the Santa Maria, Oxnard, and Bakersfield 
CBOCs. GLA currently has two Veterans Transition Centers/Post-
Deployment Clinics where mental health services are provided to 
OEF/OIF/OND Veterans in an integrated primary care setting at 
the Sepulveda and West Los Angeles sites. Separate clinics for 
meeting the mental health needs of female Veterans are 
available at the three major sites in primary care settings.
    Inpatient mental health care is provided at the West Los 
Angeles Medical Center where there are currently 45 operational 
inpatient beds available to Veterans who are in need of acute 
inpatient care due to the severity of their mental health 
condition.
    GLA also has a long-established Domiciliary Residential 
Rehabilitation Treatment Program, which has 296 operational 
beds. The Domiciliary is located at the West Los Angeles 
Medical Center and serves Veterans from all GLA facilities as 
well as from other VA facilities in Veterans Integrated Service 
Network (VISN) 22 (e.g., VA Southern Nevada Healthcare System 
in Las Vegas). The Domiciliary offers residential treatment 
programs for Veterans who have experienced post-traumatic 
stress disorder (PTSD), for Veterans who are homeless, for 
Veterans with substance use disorders, and for Veterans who are 
attempting to return to competitive employment. Our Domiciliary 
also can accommodate Veterans who prefer to receive care in a 
single-gender setting.

Oxnard Mental Health Clinic

    As Veteran demand for outpatient mental health appointments 
has grown, GLA has strived to build capacity and keep up with 
the demand at the Oxnard Mental Health Clinic. Staffing and 
space issues have posed limitations, and we have deployed a 
number of strategies to keep up with demand and meet our 
patients' needs. Since October 1, 2013, each week approximately 
eight to ten new Veterans are seen for mental health services 
at the Oxnard Clinic. Additionally, we provide care to 1,152 
established mental health patients for whom we provide ongoing 
care. To improve access and increase our capacity for mental 
health services at the Oxnard Clinic, we have brought on 
additional mental health providers, including permanent, fee 
basis, and locum tenens providers. With the addition of these 
new mental health providers, we will meet current demand.
    A limited number of offices are available in the current 
space at the Oxnard Clinic, and as demand for mental health 
care services grew, office space became increasingly 
insufficient. In preparation for the upcoming contract 
renegotiations, mental health space will be more than doubled. 
In the interim, we consolidated other clinical work and moved 
two administrative staff out of a shared office to increase the 
mental health working space to five individual rooms and one 
group room.
    One of the innovations to increase capacity at the Oxnard 
Clinic is the expansion of clinical video tele-mental health. 
This technology allows Veterans to come into the clinic and see 
a mental health provider who is based at a distant site. This 
fiscal year, tele-mental health providers have provided care to 
100 unique patients in the first quarter, FY 2014 alone, 
whereas they provided care to a total of 155 unique patients 
during the previous year. Staffing for Oxnard tele-mental 
health is currently the equivalent of a 0.5 full-time 
equivalent (FTE) remote provider. We have also been part of a 
VISN project with our partners at the VA San Diego Healthcare 
System to offer evidence-based intensive psychotherapy to 
Oxnard patients via tele-health at the Oxnard Clinic with 
expert providers located in San Diego. Currently, we are 
developing an implementation plan to deploy Jabber, one of VA's 
latest innovations where patients who need counseling can be 
evaluated from their homes on their own personal computer 
screens.
    Our process of electronic consultation allows review of the 
specific Veteran's needs and referrals electronically and 
telephonically, as appropriate. Some patients' needs can be met 
through email with the primary care provider on the same day or 
through a phone call. Veterans can be seen at any VA facility 
if they have an urgent need, and if they choose to travel 
(potentially with reimbursement or via VA transportation). In 
cases where we have fallen behind in timeliness, we have 
offered this option to Veterans in Oxnard, and they have been 
seen sooner at Sepulveda or Santa Barbara. So far this year, we 
have received 246 consults, which are new, returning, or 
multidisciplinary (to psychology, psychiatry, and social work). 
We are actively scheduling these patients with the new staff 
recently brought on board.

Oxnard Homeless Veterans/Veterans Justice Outreach Program

    Ending Veterans homelessness is a national initiative 
involving VA, HUD, Federal, state, local authorities, and 
community partners. In Oxnard, the HUD-VA Supportive Housing 
voucher program and Homeless Outreach team have been focusing 
on connecting homeless Veterans to VA services. The Homeless 
Outreach team is also connected with the Veterans Justice 
Outreach Program. We are in preliminary discussions with the 
courts to bring Veterans out of jail and into homeless 
programs. Veterans need to participate and successfully 
complete a treatment program and take the needed steps to 
return to productive lives to demonstrate to the Judge their 
desire to turn their lives around and become productive 
citizens. Successful completion of their program is an 
alternative to incarceration and results in charges being 
stayed or dropped. We are exploring potential substance use 
disorder treatment programs for homeless Veterans to support 
their recovery process. Currently, we have fee-basis funding 
for Veterans who need substance use disorder treatment or other 
residential mental health treatment in Ventura County. In the 
near future, we will have TriWest contracts through PC3 for 
community programs appropriate for Veteran care.

Mental Health Performance Metrics

    VHA has developed many metrics to monitor performance in 
the delivery of mental health services. These monitors include 
the following:
    1) Patients who are discharged from acute inpatient mental 
health treatment should receive follow up contact within 7 
days. VHA's goal is that 75 percent of Veterans in this 
category should have such contact within 7 days. Through the 
first 4 months of FY 2014, GLA has successfully contacted 86.5 
percent of Veterans discharged from acute inpatient mental 
health treatment for follow up within 7 days of discharge.
    2) Qualifying Veterans should have a Mental Health 
Treatment Coordinator (MHTC) assigned to them. VHA's goal is 
that 87 percent of qualified Veterans should be assigned an 
MHTC. GLA had 89.6 percent of qualifying Veterans assigned to 
an MHTC as of December 2013.
    3) OEF/OIF/OND Veterans diagnosed with PTSD are expected to 
have eight evidence-based psychotherapy sessions, an approach 
to therapy supported by research findings where the findings 
provide evidence that is effective, over a 14-week period. 
VHA's target is 83.3 percent of Veterans will receive eight 
sessions in a 14-week period. Although in first quarter, FY 
2014, GLA was at 57 percent, the December 2013 data was at 86.8 
percent.
    4) In FY 2013, VHA redefined access measures for new and 
established (i.e., received mental health care in the last 24 
months) Veterans in mental health care. For Veterans who have 
established mental health treatment, VHA tracks the percentage 
of Veterans who are able to schedule an appointment within 14 
days of their desired date, which is VHA's goal. The FY 2014 
target for this is 95 percent. During this fiscal year, GLA 
MHCL has achieved that goal 96.8 percent of the time. At the 
Oxnard CBOC, the goal is met 91 percent of the time.
    5) For Veterans who are new to mental health care, the GLA 
tracks VHA's goal of having Veterans complete an initial 
appointment in 14 days or less from when they made the request 
for the appointment. VHA's target is 70 percent. Targets were 
adopted in roughly November of 2013 after reviewing the 
baseline performance in 2012. The Access and Clinic 
Administration Program (ACAP) and Office of Informatics and 
Analytics (OIA) were asked to suggest targets. VHA analyzed 
performance levels, variation, trends, and used standard 
methods (methods used to establish other targets) to arrive at 
the current goal levels. For FY 2014, the GLA MHCL has provided 
this level of access 56 percent of the time and 40 percent of 
the time at the Oxnard Clinic. VA intends to add new staff to 
improve these percentages and decrease wait times for 
appointments over 45 days. Any Veteran in crisis presenting to 
the CBOC or calling in is seen immediately.

Ventura County Community Partnerships

    GLA and the Oxnard CBOC make use of multiple community 
programs and resources. This includes many different faith-
based and non-profit programs. VA believes it is vitally 
important that we network with our community partners in the 
delivery of health care. These community partners have been 
strong allies in our efforts, and we appreciate their 
contributions to our Veterans' health and welfare.

Suicide Prevention

    GLA has three full-time Suicide Prevention Coordinators 
(SPC) located at the West Los Angeles, Sepulveda, and Santa 
Maria sites. The SPCs provide ongoing information, education, 
and consultation to GLA administrators, leaders, and staff 
regarding policy related to suicide prevention and risk 
reduction, including the identification and assessment of risks 
for suicide, safety planning, follow up, and engagement in care 
and crisis/emergency responses. SPCs also respond to national 
Veterans Crisis Line referrals, aggregate suicide data with GLA 
and VISN 22 VA facilities, participate in root cause analyses 
of suicide-related events and Environment of Safety rounds, and 
provide regular outreach to state and community agencies, local 
colleges, Veterans Service Organizations, and health, safety, 
employment, public affairs, and military-related events.

Conclusion

    VHA, GLA, and the Oxnard Clinic are committed to providing 
high-quality care our Veterans have earned and deserve, and we 
have continued to improve access and services to meet the 
mental health needs of Veterans. We appreciate the opportunity 
to appear before you today and the resources Congress provides 
VA to care for Veterans. My colleagues and I are happy to 
respond to any questions you may have.
                                 <F-dash>

       Statement of The American Legion, United States House of 
  Representatives, Health Subcommittee of the Committee on Veterans' 
    Affairs, Field Hearing on ``An Examination of Veteran Access to 
Traditional and Alternative Forms of Mental Health Therapy'', February 
                                20, 2014

    Tim Hecker joined the Army at 18 and soon decided to make a 
career of it. He served 22 years in all, in and out of combat, 
rising to the rank of master sergeant. In the summer of 1990, 
he married his high-school sweetheart, Tina, and the couple had 
three children.
    Then Tim couldn't remember having married Tina. He couldn't 
tell his sons apart. Their names escaped him. Injuries suffered 
in two separate roadside-bomb explosions in a span of two 
months in Iraq in early 2008 left him with a traumatic brain 
injury and severe post-traumatic stress. He was no longer the 
man Tina had married.
    Frustrated with her husband's descent and the lack of 
progress with traditional care, Tina went online and found 
information about hyperbaric medicine. Following a phone call 
and an initial interview, Tim was selected to be part of a 
pilot study on the use of hyperbaric oxygen therapy (HBOT) for 
Traumatic Brain Injury (TBI) and Posttraumatic Stress Disorder 
(PTSD). He claims the treatments have given him back most of 
his pre-injury life.
    ``By the fourth treatment, I started feeling like a new 
person,'' he says at his home in West Edmeston, NY. ``I was 
more aware. I could see things. The deeper I got into the 
treatments, my cognition started to come back--my motor skills 
and my balance. My vision started to improve. The biggest 
benefit was my emotional control.''
    ``We're talking a 180-degree turn around,'' Tina says. 
``There are days when he's almost back to normal with his 
personality.''
    The preceding story is a condensed version of one of the 
many veteran stories The American Legion encountered while 
researching and compiling The War Within, \1\  a landmark 
report published by The American Legion to highlight the 
findings of the TBI and PTSD Committee founded in 2010. It is 
illustrative of the possibilities presented by one of many 
potential alternative therapies for some of the emerging wounds 
of modern warfare, TBI and PTSD. As veterans struggle to cope 
with these conditions, sometimes alternative therapies offer 
solutions traditional therapies cannot provide. For this reason 
The American Legion believes the Department of Veterans Affairs 
(VA) must be at the forefront of cutting edge care, to include 
alternative therapies, if they are to truly serve the veterans 
who suffer from the modern wounds of war.
---------------------------------------------------------------------------
    \1\ http://www.legion.org/publications/217301/war-within-treatment-
traumatic-brain-injury-and-post-traumatic-stress-disorder

---------------------------------------------------------------------------
Background

    The American Legion has continued to be concerned with the 
unprecedented numbers of veterans returning from the wars in 
Iraq and Afghanistan suffering from TBI and PTSD, categorized 
as the ``signature wounds'' of these conflicts. The American 
Legion believed that all possibilities should be explored and 
considered in an attempt to finding treatments, therapies, and 
cures for TBI and PTSD to include alternative treatments and 
therapies and they need to make them accessible to all 
veterans. If these alternative treatments and therapies are 
deemed effective they should be made available and integrated 
into the veterans' current health care model of care.
    As a result The American Legion established the TBI and 
PTSD Committee in 2010 comprised of American Legion Past 
National Commanders, Commission Chairmen, respected academic 
figures, and national American Legion staff. The committee is 
focused on investigating existing science and procedures as 
well as alternative methods for treating TBI and PTSD that are 
not being employed by the Department of Defense (DoD) and VA 
for the purpose of determining if such alternative treatments 
are practical and efficacious.
    During a three year study the committee met with leading 
authorities in the DoD, VA, academia, veterans, private sector 
mental health experts, and caregivers about treatments and 
therapies veterans have received or are currently receiving for 
their TBI and PTSD symptoms. As a result of the study, the 
committee released their findings and recommendations in a 
report titled ``The War Within.'' ``The War Within'' report 
highlights these treatments and therapies and also identifies 
findings and recommendations to the DoD and VA.

Key Highlights and Findings of the Report

    Some of the critical findings of The War Within included:

        <bullet> Most of the existing research for the last several 
        years has only validated the current treatments that already 
        exist--VA and DoD research is not pushing the boundaries of 
        what can be done with new therapies, merely staying within an 
        environment of self-confirmation bias.
        <bullet> There seems to be a lack of fast track mechanisms 
        within DoD and VA to employ innovative or novel therapies--a 
        standardized approach to these therapies could help service 
        members and veterans gain access to care that could help them.
        <bullet> While some VA Medical Centers (VAMCs) do offer 
        complementary alternative medicine (CAM) therapies, they are 
        not offered in a consistent or uniform manner across all 152 
        VAMCs nationwide--VA struggles with consistency and needs 
        better guidance.

    In addition to those findings, the TBI and PTSD Committee made some 
recommendations for the way forward:

        <bullet> Congress needs to provide oversight and funding to DoD 
        and the VA for innovative TBI and PTSD research that is being 
        used successfully in the private sector health care systems 
        such as hyperbaric oxygen therapy, virtual reality exposure 
        therapy, and non-pharmacological treatments and therapies. \2\ 
---------------------------------------------------------------------------
    \2\ Resolution #108: Request Congress Provide the Department of 
Veterans Affairs Adequate Funding for Medical and Prosthetic Research
---------------------------------------------------------------------------
        <bullet> Congress needs to increase DoD and the VA research and 
        treatment budgets in order to improve the research, screening, 
        diagnosis, and treatments for TBI and PTSD.
        <bullet> DoD and VA need to accelerate their research efforts 
        in order to effectively and efficiently diagnose and develop 
        evidence-based TBI and PTSD treatments.

Continued Efforts

    The American Legion's efforts to assess the care and 
treatments available for veterans suffering from TBI and PTSD 
are not limited to the efforts of the TBI and PTSD Committee. 
In 2003, The American Legion established the System Worth 
Saving Task Force to conduct ongoing, on-site evaluations of 
the Veterans Health Administration (VHA) medical system. 
Annually, System Worth Saving visits provide Legionnaires, 
Congress and the public with an in-depth, boots on the ground 
view of how veterans are receiving their health care across the 
country.
    Over the last several years, the System Worth Saving 
reports have examined the full spectrum of VHA care, but 
specifically have noted several things about how VHA delivers 
on complementary and alternative medicine (CAM) in their 
facilities.
    VA medical centers throughout the VA health care system are 
committed, dedicated, and compassionate about treating veterans 
with TBI. Many medical centers throughout the country have 
found successful complementary and alternative methods for the 
treatment of TBI and PTSD such as hiking, canoeing, nature 
trips, equine, and music therapy. \3\  While some systems like 
the El Paso VA Healthcare System offer several CAM solutions, 
such as yoga, guitar lesions, sleep hygiene and other 
practices, other locations such as the Pittsburgh VA and 
Roseburg VA Healthcare System are more limited, offering only 
acupuncture in Pittsburgh, and acupuncture for pain management 
through the fee basis program in Roseburg. \4\ 
---------------------------------------------------------------------------
    \3\ 2011 SWS-``Transition of Care from DoD to VA''
    \4\ 2014 SWS-``Past, Present and Future of VA Health Care''
---------------------------------------------------------------------------
    In addition to the ongoing System Worth Saving Task Force 
visits, The American Legion is taking the lead for veterans by 
aggressively pursuing the best possible treatment options for 
veterans on multiple fronts.

Hearing From Veterans About Their Treatment

    On February 3, 2014, The American Legion launched a TBI and 
PTSD survey online in order to evaluate the efficacy of the 
veterans' TBI and PTSD care, treatments, and therapies and to 
inquire if they are receiving and benefiting from CAM treatment 
offered by the DoD and VA. The survey will assist The American 
Legion to better understand the experiences of veterans who 
receive care throughout the VA health care system.
    William Detweiler, Past National Commander and Chairman of 
the TBI and PTSD Committee stated, ``The American Legion is 
very concerned by the unprecedented number of veterans who 
suffer from these two conditions . . . We firmly believe that 
both VA and DoD need to act aggressively in adopting all 
effective treatments and cures, including alternatives being 
used in the private sector, and make them available to our 
veterans nationwide . . . By completing this survey, veterans 
across America will have the opportunity to tell the true story 
of the types of care and treatments that they are actually 
receiving for PTSD and TBI. The survey will greatly help The 
American Legion in its efforts to advise the Administration, 
Congress, DoD, VA on the best possible care and treatments for 
these injuries.''
    The survey is available online at: www.legion.org

Symposium

    On May 21, 2014, The American Legion is hosting a TBI and 
PTSD Symposium entitled ``Advancing the Care and Treatment of 
Veterans with TBI and PTSD.'' The symposium aims to discuss the 
findings and recommendations from the TBI and PTSD veteran's 
survey, hear directly from service members, veterans, and 
caregivers on their TBI and PTSD experiences, treatments and 
care, and determine how the Administration, Congress, DoD and 
VA are integrating complementary and alternative treatments and 
therapies into current models of veterans' health care.

Conclusion

    As America progressed through the first decade of the 21st 
century as a nation at war, an evolving understanding of the 
nature of the wounds of warfare emerged. As understanding of 
the wounds of war continues to emerge, veterans must be 
reassured that the care they receive, whether serving on active 
duty in the military, or through the VA Healthcare system in 
their home town, is the best treatment available in the world. 
To combat the physical and psychological wounds of war, 
sometimes the old treatments are not going to be the most 
efficacious.
    Just as new understanding about the nature of these wounds 
emerges, so too must the new understanding about the best way 
to treat these wounds continue to adapt and evolve. Veterans 
are fortunate to have access to a health care system designed 
to treat their wounds, but that system must recognize that 
different treatments will have differing levels of 
effectiveness depending on the individual needs of the wounded 
veteran. There is no silver bullet. There is no single 
treatment guaranteed to cure all ailments. With a national 
policy that respects and encourages alternative therapies and 
cutting edge medicine, veterans have the best possible shot to 
get the treatment they need to continue being the productive 
backbone of society their discipline and training prepares them 
to be.
    The American Legion looks forward to working with the 
Committee, as well as VA, to find solutions that work for 
America's veterans. For additional information regarding this 
testimony, please contact Mr. Ian de Planque at The American 
Legion's Legislative Division, (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b424f4e5b474a455a5e4e6b474e4c4244450544594c05">[email&#160;protected]</a>

                     Letter From Ventura Vet Center

    February 25, 2014
    From: Team Leader, Ventura Vet Center 10RCS/4B-0643
    Ventura Vet Center, 790 E. Santa Clara St. #100,
    Ventura, CA 93001,
    (805) 585-1860 and Fax (805) 585-1864

    To: Honorable Dan Benishek and Honorable Julia Brownley

    Subj: Supplemental Remarks to Congressional Field Hearing

    Chairman Benishek and Congresswoman Brownley:

    The following information is submitted as an extension to 
my remarks at the 20 February 2014 Field Hearing addressing 
Veteran Access to Traditional and Alternative Forms of Mental 
Health Therapy in Camarillo, California.

    Scheduling Veterans for Intakes: Veterans seeking 
counseling services at the Ventura Vet Center are normally 
scheduled for an intake appointment within 3-5 days, as stated 
in the remarks at the Hearing. However, if the Veteran is a 
walk-in to the Vet Center seeking initial services, a staff 
member will spend time with them to gather initial information 
and to schedule an appointment for an extended intake. The 
staff member can also identify the Veteran's eligibility and if 
they are not eligible, make an appropriate referral. If the 
Veteran calls the Vet Center to make an initial appointment and 
no clinical staff is available to speak to them, the Veteran 
will receive a return call the same day. The Vet Center has 
recently (January 2014) expanded their hours to include evening 
hours 3 nights a week (Monday through Wednesday), until 2000, 
and Saturdays from 0800 to 1630.

    Outreach: The Ventura Vet Center has access to one of 70 
Mobile Vet Centers that are stationed across the United States 
and is another tool utilized in outreach efforts. The Mobile 
Vet Center is a standalone RV unit that includes a counseling 
room to accommodate privacy at Outreach Events. One of the 
Mobile Vet Centers is normally used by our Vet Center at larger 
outreach events.

    Marriage and Family Therapists: Testimony of one of the 
witnesses during the hearing stated that the Department of 
Veterans Affairs (VA) does not hire Marriage and Family 
Therapists. I am a Licensed Marriage and Family Therapist and I 
am an employee of the VA (one of many within Readjustment 
Counseling Services.) VA Handbook 5005/41, Part II, Appendix 
G42 was updated 28 September 2010 and outlines the basic 
requirements for employment as a Veterans Health Administration 
Marriage and Family Therapist, which are prescribed by statute 
in 38 U.S.C. Sec.  7402(b)(10), as amended by section 201 of 
Public Law 109-461, enacted December 22, 2006.
    Thank you for the opportunity to supplement my remarks to 
the Field Hearing.

    Respectfully Submitted
    Jane Twoombley, LMFT

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
